<html>
<title> - IMPROVING THE FEDERAL RESPONSE: PERSPECTIVES ON THE STATE OF EMERGENCY MANAGEMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


IMPROVING THE FEDERAL RESPONSE: PERSPECTIVES ON THE STATE OF EMERGENCY 
                               MANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2019

                               __________

                            Serial No. 116-7

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                   

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                U.S. GOVERNMENT PUBLISHING OFFICE                    
36-396 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="72021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>                                  
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Major Louis V. Bucchere, Commanding Officer, Emergency Management 
  Services, New Jersey State Police:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Steve Reaves, FEMA Local 4060, President, American Federation 
  of Government Employees:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Chief Martin ``Marty'' Senterfitt, Fire Deputy Chief & Director 
  of Emergency Management, Monroe County, Florida:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Chief James Waters, Counterterrorism, NYPD:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                Appendix

Questions From Chairman Donald M. Payne, Jr. for Louis V. 
  Bucchere.......................................................    37
Questions From Chairman Donald M. Payne, Jr. for Martin ``Marty'' 
  Senterfitt.....................................................    38
Question From Chairman Donald M. Payne, Jr. for Steve Reaves.....    39

 
IMPROVING THE FEDERAL RESPONSE: PERSPECTIVES ON THE STATE OF EMERGENCY 
                               MANAGEMENT

                              ----------                              


                       Wednesday, March 13, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 310, Cannon House Office Building, Hon. Donald M. Payne, 
Jr. [Chairman of the subcommittee] presiding.
    Present: Representatives Payne, Richmond, Rose, Underwood, 
King, Joyce, Crenshaw, and Guest.
    Mr. Payne. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order. The subcommittee is 
meeting today to receive testimony on improving the Federal 
response perspectives on the state of emergency management.
    Good afternoon. I want to thank the witnesses for coming to 
Washington, DC today to discuss the incredibly important topic: 
The state of emergency management and preparedness in our 
country.
    I also would like to take the opportunity to welcome 
Representative King to his first hearing as Ranking Member of 
the Subcommittee on Emergency Preparedness, Response, and 
Recovery. I look forward to the work that we'll do together 
over this Congress.
    As we have seen the last few years, disasters are affecting 
communities across America more frequently and more intensely. 
Storms are getting worse. Climate change will only continue 
that trend, unfortunately. Congress has to ensure that the 
Federal Government is doing everything possible to support 
communities as they prepare for and recover from disasters.
    Based on the outcomes from the 2017 storms, particularly in 
Puerto Rico, there is no question that the Federal Government's 
response needs improvement. That starts with investing more in 
preparedness before a disaster occurs, with the hope of saving 
lives and property and reducing costs after a disaster.
    Research shows that for every dollar we invest in 
mitigation funding, we save $6 from reduced damage after a 
disaster. However, FEMA's Pre-Disaster Mitigation Fund still 
gets shortchanged every year. That needs to change.
    This is not just true for disasters, but all aspects of 
preparedness. States and local governments need more support in 
preparing for terrorist attacks, too. As the nature of 
terrorism threats are changing, with increasing lone-wolf and 
domestic extremist attacks, State and local governments need 
Federal assistance to build up their response capabilities.
    Unfortunately, funding for preparedness grants, the 
Homeland Security Grant Program, has not fully rebounded from 
cuts imposed by the Republican-controlled House in fiscal years 
2011 and 2012. That must change.
    Moreover, we must be prepared to respond to complex, 
concurrent events, as we saw in 2017, with multiple hurricanes 
and wildfires. FEMA does not have enough workers to meet its 
target goals. Additionally, FEMA has not kept pace in ensuring 
its workers have adequate training.
    This was a particular problem in 2017, where FEMA's own 
assessment found that it placed staff in positions beyond their 
experience and, in some instances, beyond their capabilities.
    Our panel here today offers a range of diverse and unique 
perspectives into how the Federal Government can improve in the 
fields of emergency management and preparedness. I look forward 
to hearing their views on this important topic, and to 
discussing with the Ranking Member and my colleagues how we can 
work together to ensure resilient communities.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                             March 13, 2019
    As we have seen the last few years, disasters are affecting 
communities across America more frequently and more intensely. Storms 
are getting worse, and climate change will only continue that trend, 
unfortunately. Congress has to ensure that the Federal Government is 
doing everything possible to support communities as they prepare for 
and recover from disasters.
    Based on the outcomes from the 2017 storms, particularly in Puerto 
Rico, there is no question the Federal Government's response needs 
improvement. That starts with investing more in preparedness before a 
disaster occurs, with the hope of saving lives and property and 
reducing costs after a disaster.
    Research shows that for every $1 we invest in mitigation funding, 
we save $6 from reduced damage after a disaster. However, FEMA's Pre-
Disaster Mitigation Fund still gets shortchanged every year. That needs 
to change. This is not just true for disasters, but all aspects of 
preparedness.
    States and local governments need more support in preparing for 
terrorist attacks, too. As the nature of terrorism threats are 
changing, with increasing lone-wolf and domestic extremist attacks, 
State and local governments need Federal assistance to build up their 
response capabilities. Unfortunately, funding for preparedness grants, 
the Homeland Security Grant Program, has not fully rebounded from cuts 
imposed by the Republican-controlled House in fiscal years 2011 and 
2012.
    That must change. Moreover, we must be prepared to respond to 
complex, concurrent events, as we saw in 2017, with multiple hurricanes 
and wildfires.
    FEMA does not have enough workers to meet its target goals. 
Additionally, FEMA has not kept pace in ensuring its workers have 
adequate training. This was a particular problem in 2017, where FEMA's 
own assessment found that it ``placed staff in positions beyond their 
experience and, in some instances, beyond their capabilities.''
    Our panel here today offers a range of diverse and unique 
perspectives into how the Federal Government can improve in the fields 
of emergency management and preparedness. I look forward to hearing 
their views on this important topic, and to discussing with the Ranking 
Member and my colleagues how we can work together to ensure safer, more 
resilient communities.

    Mr. Payne. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman, and like you I look 
forward to working with you, your friend and neighbor, and I 
think we can do some positive bipartisan work in this Congress. 
I certainly look forward to it.
    I find today's hearing especially important because 
following the attacks of 9/11 FEMA was 1 of 22 agencies and 
offices that were combined to form the Department of Homeland 
Security. Today, FEMA stands with its primary mission to reduce 
the loss of life and property and to protect the Nation from 
all hazards, including natural disasters, acts of terrorism, 
and other man-made disasters.
    In recent years, you and I saw a Superstorm Sandy which 
resulted in over 100 deaths. In 2017 we witnessed another, as 
you said, another devastating disaster season, Hurricanes 
Harvey, Irma, Maria, wildfires that ravaged the West Coast and 
just last month--yes, last month we saw the terrible tornado in 
Alabama which devastated Ranking Member Rogers' district.
    So strong Federal, State, and local coordination before, 
during, and after a catastrophic event is key to effective 
emergency preparedness. The first goal in FEMA's 2018 through 
2022 strategic plan promotes the idea that everyone should be 
prepared when disaster strikes, whether it is a hurricane, 
tornado, or a terror attack.
    As evidenced by the terror attacks on September 11, and 
more recently the October 17 vehicle ramming in lower Manhattan 
that killed 8 people, the December 2017 Port Authority bombing, 
the 2016 Chelsea bombing, the New York City area, which 
includes New York City, Nassau, Suffolk, Westchester and a 
great part of Rockland has been and remains our Nation's top 
terror target.
    FEMA's preparedness grants provide State, local, Tribal, 
and territorial governments the ability to build, sustain, and 
improve capabilities to prepare for, protect against, respond 
to, recover from, and mitigate all hazards, including terrorism 
threats.
    Federal funds through vital grant programs such as the 
State Homeland Security Grant Program, Urban Area Security 
Initiative, Port Security Grant Program, and Transit Security 
Grant Program enable local communities to support their first 
responder workforce and to harden their defenses against 
potential attacks.
    Federal grant funding has enabled the New York City 
Department of Emergency Management, the NYPD, and the FDNY to 
conduct training and exercises, provide public education and 
outreach and develop response protocols and safety initiatives 
to significantly increase security preparedness.
    For instance, grant funding has enhanced the Ready New York 
Program, New York City's educational program to encourage 
residents to prepare for all types of emergencies. Federal 
grant programs have also supported the city's CERT program and 
the City-wide Incident Management System among others.
    The ability to utilize FEMA grant funding is critical in 
the overall safety of communities. This hearing will provide a 
broad overview of the current state of emergency preparedness 
and will allow the witnesses here today to present their 
insights and priorities for emergency preparedness moving 
forward.
    Additionally, I look forward to hearing suggestions from 
our witnesses on how FEMA's new administrator can improve 
disaster preparedness, response, and recovery.
    Thank you, Mr. Chairman, and I yield back to you.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
                             March 13, 2019
    Following the horrific attacks on September 11, 2001, the Federal 
Emergency Management Agency (FEMA) was one of 22 disparate agencies and 
offices combined to create the Department of Homeland Security. FEMA 
stands today with its primary mission to ``reduce the loss of life and 
property and to protect the Nation from all hazards, including natural 
disasters, acts of terrorism, and other man-made disasters.''
    In 2012, Superstorm Sandy wreaked havoc on the States of New York 
and New Jersey, as well as 10 other States, resulting in over 100 
deaths, hundreds of thousands of impacted residents, and $65 billion in 
damages.
    In 2017, we witnessed another devasting disaster season. From 
Hurricanes Harvey, Irma, and Maria, to the wildfires that ravaged the 
West Coast, FEMA had its work cut out for it.
    Strong Federal, State, and local coordination before, during, and 
after a catastrophic event is key to effective emergency preparedness. 
The first goal in FEMA's 2018-2022 Strategic Plan promotes the idea 
that everyone should be prepared when disaster strikes whether it is a 
hurricane or a terror attack.
    As evidenced by the terrorist attacks on September 11, and more 
recently, the October 2017 vehicle ramming in lower Manhattan that 
killed 8 people, and the December 2017 Port Authority bombing, New York 
City has been and remains our Nation's top terror target. FEMA's 
preparedness grants provide State, local, Tribal, and territorial 
governments the ability to build, sustain, and improve capabilities to 
prepare for, protect against, respond to, recover from, and mitigate 
all hazards, including terrorism threats.
    Federal funds through vital grant programs such as the State 
Homeland Security Grant Program, Urban Area Security Initiative, Port 
Security Grant Program, and Transit Security Grant Program enable local 
communities to support their first responder workforce and to harden 
their defenses against potential attacks.
    Federal grant funding has enabled the New York City Department of 
Emergency Management, the NYPD, and the FDNY to conduct training and 
exercises, provide public education and outreach, and develop response 
protocols, and safety initiatives to significantly increase security 
preparedness.
    For example, grant funding has enhanced the Ready New York Program, 
New York City's educational campaign to encourage residents to prepare 
for all types of emergencies. Federal funding has also supported NYC's 
CERT Program, Continuity of Operations Program, and the City-wide 
Incident Management System, among others. The ability to utilize FEMA 
grant funding is critical to the success of our first responders and 
the overall safety of our communities.
    This hearing will provide a broad overview of the current state of 
emergency preparedness and will allow the witnesses here today to 
present their insights and priorities for emergency preparedness moving 
forward. Additionally, I look forward to hearing suggestions from our 
witnesses on how FEMA's new administrator can improve disaster 
preparedness, response, and recovery.

    Mr. Payne. Thank you, Ranking Member.
    Other Members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 13, 2019
    Good afternoon. Thank you, Chairman Payne and Ranking Member King 
for holding today's hearing.
    I am pleased that the subcommittee's first hearing of the 116th 
Congress is focused on the state of the Nation's emergency 
preparedness. As we know all too well, in 2017, the hurricane season 
and unprecedented wildfires exposed major gaps in our Nation's 
emergency response capabilities and general preparedness.
    FEMA's poor response to Hurricane Maria in Puerto Rico highlighted 
how far behind we are in emergency management and how much further we 
must go to provide all Americans the help they need in times of 
disaster.
    Having witnessed the catastrophe that was Hurricane Katrina, I know 
first-hand the horrors of a subpar emergency response from the Federal 
Government and FEMA. For that reason, I am especially concerned that 
FEMA has not made more significant improvements in its response in the 
14 years since Hurricane Katrina.
    FEMA is not only the leader of the Federal Government's emergency 
response efforts, but the Agency also supports and provides critical 
assistance to State and local governments in their time of need.
    Simply put, State and local governments depend on FEMA's assistance 
when disaster strikes.
    In addition to natural disasters being a threat to our Nation, 
other security threats such as school shootings and lone-wolf terrorist 
attacks have been on the rise. These threats to our homeland underscore 
the importance of emergency preparedness, and the need for us to 
improve in this area. The consequences are too high for the status quo 
to remain.
    I look forward to hearing from the witnesses today about how the 
Federal Government and, specifically FEMA, can improve its partnership 
with State and local governments to ensure a more robust response to 
disasters, both natural and man-made. Also, I look forward to hearing 
from our witness from the American Federation of Government Employees 
about the key role the workforce plays in protecting our Nation from 
disasters.
    I know FEMA continues to have staffing shortages and other 
workforce challenges it must address to improve its response 
capabilities and build a stronger agency. Congress needs to do its part 
to ensure FEMA does just that.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    Mr. Payne. I welcome our panel of witnesses. Our first 
witness is Major Louise--Louis Bucchere. I am sorry. He is the 
commanding officer of the Emergency Management Section with New 
Jersey's State Police, which I should know better.
    Next we have Mr. Steve Reaves, the FEMA Local 4060 
president, part of the American Federation of Government 
Employees.
    Then Mr. Martin, is it Senterfitt, is the fire deputy chief 
and director of Emergency Management for Monroe County, 
Florida. Boy I am having a rough time here.
    Last, I will relinquish to the Ranking Member to introduce 
the final witness.
    Mr. King. Our final witness will be Chief Jim Waters from 
NYPD. I have known Jim for more than 15 years. He was the head 
of the JTTF in New York from the NYPD side. He is now the chief 
of counterterrorism. He has done a truly outstanding job. He 
really personifies what the NYPD is all about, and I am proud 
that he has agreed to testify here today. Thank you.
    Mr. Payne. Thank you.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Major Bucchere.

   STATEMENT OF MAJOR LOUIS V. BUCCHERE, COMMANDING OFFICER, 
     EMERGENCY MANAGEMENT SERVICES, NEW JERSEY STATE POLICE

    Major Bucchere. Good afternoon, Chairman Payne, Ranking 
Member King, and Members of the subcommittee. Thank you for the 
opportunity to testify before you today.
    It is an honor to speak on behalf of the many dedicated 
professionals at the New Jersey State Police and on behalf of 
Colonel Patrick J. Callahan who also serves as the State 
director of emergency management.
    I am Major Louis Bucchere, commanding officer of the 
Emergency Management Section which is also known as the New 
Jersey Office of Emergency Management. NJOEM is co-located with 
our State police office of the regional operations and 
intelligence center at the State's fusion center, which allows 
for seamless information sharing and cooperation between the 
emergency management and intelligence functions.
    The State plans for all hazards and all threats. In the 
aftermath of Sandy, which displaced some coastal residents for 
years, NJOEM's objective has been to enhance the State's 
internal capacity to manage large-scale incidents.
    We accomplish this with the support of Federal grants and 
equipment and by leveraging relationships supporting the 
emergency and management assistance compact, increasing our 
cadre of trained emergency management professionals, and 
enhancing community preparedness.
    NJOEM facilitates regular meetings with emergency 
management staff from key State agencies, nonprofit and 
volunteer groups, county emergency management offices, and 
Federal agencies. This group is the cornerstone of our 
emergency management program.
    In addition, we work directly with county emergency 
management offices and also collaborate with the private 
sector. We also maintain a critical partnership with the New 
Jersey Office of Homeland Security and Preparedness to enhance 
preparedness, prevention, and response efforts for terrorist 
attacks and cyber incidents.
    NJOEM also leverages task forces to address concerns for 
the State such as sheltering, evacuation, and opioid use. New 
Jersey's Task Force One has been deployed several times since 
qualifying as a FEMA urban search-and-rescue team and provides 
local search and rescue assistance in the State.
    Four members of the FEMA integration team are assigned to 
work with NJOEM to provide assistance with planning for 
sheltering, housing, mitigation, and community emergency 
response teams. We are appreciative of their support.
    New Jersey actively participates in the emergency 
management assistance compact. Recently, New Jersey supported 
the deployment of personnel to the U.S. Virgin Islands, Puerto 
Rico, Georgia, Florida, North Carolina, California, and Hawaii. 
In 2017 alone, New Jersey deployed over 800 personnel to EMAC 
missions.
    The State also deployed critical assets including 
industrial generators to Georgia and a mobile field hospital to 
the Virgin Islands. Our deployed first responders use their 
skills and bring back best practices to New Jersey and fortify 
relationships with other States.
    However, EMAC deployments involve a significant financial 
outlay and the reimbursement process is time-consuming. In New 
Jersey's case, reimbursement of several million dollars from 
2017 is still outstanding. While EMAC is a State-to-State 
agreement, all parties, including the Federal Government would 
benefit from a streamlined reimbursement process.
    NJOEM strives to have the best-trained emergency management 
staff at all levels within the State. Like many other States, 
we face several challenges in meeting emergency management 
workforce needs. One of our primary challenges is that staffing 
is budgeted for blue-sky days. However, we must scale up 
operations significantly to meet the requirements of gray-sky 
incidents while still maintaining all critical functions.
    Additional challenges exist at the local level where 
emergency managers are often part-time employees or volunteers. 
We meet these challenges through training and workforce 
certification and the use of added contract staff.
    NJOEM maintains a full-time training unit and has been 
approved by FEMA to conduct advanced training in our home 
State.
    The State recently formed the New Jersey All-Hazards 
Incident Management Team to increase our capacity for incident 
management support. The team is composed of members from State 
and local agencies, as well as nonprofits. The team has already 
distinguished itself during its deployment to Georgia for 
Hurricane Michael.
    Individual preparedness is an on-going focus and a 
challenge. We collaborate with partners across the State to 
disseminate and amplify preparedness information. The State has 
developed training to promote preparedness for individuals with 
disability and others with access and functional needs.
    The State is also assisting the counties with incorporating 
the DAF and community in emergency response planning and 
preparedness. To meet the challenge of individual and family 
preparedness the NJOEM public information office works in 
conjunction with partner agencies to ensure clear, consistent 
public messaging.
    NJOEM has built a large social media following with a 
strong brand that the State's residents have come to know and 
trust. The reality is that effective emergency management 
requires a commitment from all stakeholders and the community. 
I believe that New Jersey continues with forward momentum in 
these areas and is on the path to achieve its emergency 
management objectives.
    With continued Federal support, New Jersey can be more 
self-reliant and able to render assistance to other States and 
territories.
    I thank you for this opportunity to testify before this 
subcommittee.
    [The prepared statement of Major Bucchere follows:]
                Prepared Statement of Louis V. Bucchere
                             March 13, 2019
    Good afternoon Chairman Payne, Ranking Member King, and Members of 
the subcommittee, thank you for the opportunity to testify before you 
today. It is an honor to speak on behalf of the many dedicated 
professionals at the New Jersey State Police (NJSP), and on behalf of 
Colonel Patrick J. Callahan, who also serves as the State Director of 
Emergency Management. I am Major Louis Bucchere, commanding officer of 
the Emergency Management Section, which is also known as the New Jersey 
Office of Emergency Management (NJOEM).
    NJOEM is co-located with our State Police Office of the Regional 
Operations and Intelligence Center at the State's fusion center, which 
allows for seamless information sharing and cooperation between the 
emergency management and intelligence functions. The State plans for 
all hazards and all threats.
    In the aftermath of Sandy which displaced some coastal residents 
for years, NJOEM's objective has been to enhance the State's internal 
capacity to manage large-scale incidents. We accomplish this with the 
support of Federal grants and equipment, and by:
  <bullet> leveraging relationships;
  <bullet> supporting the Emergency Management Assistance Compact 
        (EMAC);
  <bullet> increasing our cadre of trained emergency management 
        professionals; and
  <bullet> enhancing community preparedness.
                              partnerships
    NJOEM facilitates regular meetings with emergency management staff 
from key State agencies, non-profit and volunteer groups, county 
emergency management offices, and Federal agencies. This group is the 
cornerstone of our emergency management program. In addition, we work 
directly with county emergency management offices, and also collaborate 
with the private sector. We also maintain a critical partnership with 
the New Jersey Office of Homeland Security and Preparedness to enhance 
preparedness, prevention, and response efforts for terrorist attacks 
and cyber incidents.
    NJOEM also leverages task forces to address concerns for the State, 
such as sheltering, evacuation, and opioid use. New Jersey's Task Force 
One (NJ-TF1) has been deployed several times since qualifying as a FEMA 
Urban Search & Rescue Team, and provides local search-and-rescue 
assistance in the State.
    Four members of the FEMA Integration Team are assigned to work with 
NJOEM to provide assistance with planning for sheltering, housing, 
mitigation, and Community Emergency Response Teams. We are appreciative 
of their support.
                                  emac
    New Jersey actively participates in the Emergency Management 
Assistance Compact. Recently, New Jersey supported the deployment of 
personnel to the U.S. Virgin Islands, Puerto Rico, Georgia, Florida, 
North Carolina, California, and Hawaii. In 2017 alone, New Jersey 
deployed over 800 personnel to EMAC missions. The State also deployed 
critical assets, including industrial generators to Georgia, and a 
mobile field hospital to the Virgin Islands. Our deployed first 
responders use their skills and bring back best practices to New 
Jersey, and fortify relationships with other States.
    However, EMAC deployments involve a significant financial outlay, 
and the reimbursement process is time-consuming. In New Jersey's case, 
reimbursement of several million dollars from 2017 is still 
outstanding. While EMAC is a State-to-State agreement, all parties, 
including the Federal Government, would benefit from a streamlined 
reimbursement process.
                               workforce
    NJOEM strives to have the best-trained emergency management staff 
at all levels within the State. Like many other States, we face several 
challenges in meeting emergency management workforce needs. One of our 
primary challenges is that staffing is budgeted for ``blue-sky'' days. 
However, we must scale up operations significantly to meet the 
requirements of ``gray-sky'' incidents while still maintaining all 
critical functions. Additional challenges exist at the local level, 
where emergency managers are often part-time employees or volunteers.
    We meet these challenges through training and workforce 
certification, and the use of added contract staff. NJOEM maintains a 
full-time training unit and has been approved by FEMA to conduct 
advanced training in our home State.
    The State recently formed the New Jersey All-Hazards Incident 
Management Team (NJ-AHIMT) to increase our capacity for incident 
management support. The team is composed of members from State and 
local agencies, as well as non-profits. The team has already 
distinguished itself during its deployment to Georgia for Hurricane 
Michael.
                         community preparedness
    Individual preparedness is an on-going focus and a challenge. We 
collaborate with partners across the State to disseminate and amplify 
preparedness information. The State has developed training to promote 
preparedness for individuals with disabilities and others with access 
and functional needs (DAFN). The State is also assisting the counties 
with incorporating the DAFN community in emergency response planning 
and preparedness.
    To meet the challenge of individual and family preparedness, the 
NJOEM Public Information Office works in conjunction with partner 
agencies to ensure clear, consistent public messaging. NJOEM has built 
a large social media following with a strong brand that the State's 
residents have come to know and trust.
    The reality is that effective emergency management requires a 
commitment from all stakeholders and the community. I believe that New 
Jersey continues with forward momentum in these areas, and is on the 
path to achieve its emergency management objectives. With continued 
Federal support, New Jersey can be more self-reliant and able to render 
assistance to other States and territories. I thank you for this 
opportunity to testify before this subcommittee.

    Mr. Payne. Thank you, Major.
    Next we will have testimony from Mr. Reaves for 5 minutes.

STATEMENT OF STEVE REAVES, FEMA LOCAL 4060 PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Reaves. Chairman Payne, Ranking Member King, and 
Members of the subcommittee, my name is Steve Reaves. I am the 
president of the American Federation of Government Employees, 
FEMA's National-Local 4060.
    When you speak to me--or I am speaking for the members of 
all of the FEMA that are out there working in the field today. 
We represent over 3,000 Federal employees Nation-wide. I thank 
you for the opportunity to testify on FEMA's emergency 
management.
    I am a 23-year Army veteran. I was deployed to Iraq, 
Afghanistan, Bosnia, and Somalia while in the Army. While in 
the Army I learned the importance of maintaining high morale 
and team building and brought those lessons with me to FEMA.
    Today I will talk about three workforce issues that if 
approved would strengthen FEMA's ability to carry out our 
emergency management and preparedness responsibilities. Those 
are recruitment, hiring, and retention.
    FEMA employees serve Americans by making sure disaster 
victims are made whole again after Nationally-declared 
disasters. To improve emergency management preparedness, we 
must improve how FEMA recruits qualified candidates. There is a 
backlog of security clearances currently holding up recruitment 
and hiring, which causes a significant obstacle when trying to 
recruit qualified candidates.
    FEMA struggles to recruit firefighters and police officers 
at Mount Weather, our emergency operations center in Bluemont, 
Virginia. Because of the delayed security clearance processes, 
Mount Weather is understaffed and currently has a deficit of 
firefighters and police officers.
    Their schedules are erratic and their leave requests are 
denied because of the low staffing levels. If FEMA hired more 
permanent full-time security background investigators to 
process security clearances we could expedite the hiring of 
firefighters, police officers, and qualified FEMA employees 
Nation-wide.
    FEMA employees are hired through a rigorous competitive 
merit-based examination process that includes application of 
Veterans Preference. The number of permanent full-time 
employees needed to carry out successful emergency management 
preparedness cannot be short-changed.
    Currently, there are 1,118 vacant permanent full-time 
positions at FEMA. Our employees are overworked, under-
resourced and understaffed and are frequently deployed to 
disaster zones without adequate recuperation time.
    Permanent full-time employees are outnumbered at FEMA by 
nonpermanent employees. In 1988 the Stafford Act created two 
sets of nonpermanent employees to be hired during disasters. 
These include a cadre of on-call recovery, response employees, 
or CORE, and disaster response workers, DRWs, or temporary 
workers.
    CORE and DRWs are employed and are hired using an expedited 
hiring process during disasters. For purposes of this testimony 
I will refer to CORE and DRW employees as Stafford Act 
employees.
    There are currently 15,120 Stafford Act employees employed 
at FEMA. They are used to supplement the permanent full-time 
staff, which too often results in vacancies for permanent full-
time positions going unfilled for extensive periods of time.
    The agency keeps Stafford Act employees on for far much 
longer than their 2- to 4-year terms. Stafford Act employees 
should be deployed to disaster zones for a specified amount of 
time to respond to a specific disaster.
    These positions were not designed to work with or replace 
permanent full-time employees on non-disaster work. However, 
because there is such a need for permanent full-time employees 
at FEMA it is not uncommon to find Stafford Act employees 
working outside their job descriptions.
    Additional funding and resources are needed for more 
permanent full-time staff. Identifying permanent full-time 
vacancies would help improve FEMA emergency management and 
preparedness and would allow FEMA to hire the number of 
permanent full-time staff that is truly needed.
    An adequate assessment of needs is necessary to calculate 
the number of permanent full-time current employees to 
determine where additional permanent full-time employees are 
needed to address emergency management and preparedness.
    Some Stafford Act employees have been working at FEMA far 
longer than their designated employment term. Some have worked 
longer than 10 years in Stafford Act positions. The agency 
continues to transfer their contracts to new disasters without 
giving them a permanent full-time position.
    FEMA must hire more permanent full-time employees who are 
emergency management safety and program management 
professionals hired for their skills and expertise.
    An accounting of the number of Stafford Act employees who 
have worked for FEMA in extended, long-term period is also 
needed. Positions where Stafford Act employees have been 
employed for a long time should be made into permanent full-
time positions.
    FEMA is unable to keep in-house talent at the agency. 
Stafford Act employees do not have full union rights or 
protections which help improve workplace safety, labor 
management relations, and communications in the workplace.
    When Stafford Act employees experience issues in the 
workplace they often feel as though they have little to no 
rights. FEMA should create a path to a permanent full-time 
employment for Stafford Act employees so that all employees 
have equal workplace rights and ensure FEMA is more disaster-
ready.
    Again, I would like to thank the committee for asking me 
here today and inviting me. It is a true honor.
    [The prepared statement of Mr. Reaves follows:]
                   Prepared Statement of Steve Reaves
                             March 13, 2019
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee, my name is Steve Reaves and I am the president of the 
American Federation of Government Employees, AFL-CIO (AFGE) Department 
of Homeland Security (DHS) Federal Emergency Management Agency (FEMA) 
Local 4060, which represents over 3,000 Federal and District of 
Columbia permanent full-time employees. In the aftermath of the most 
active disaster season in recent history, I thank you for the 
opportunity to testify on FEMA's emergency management and preparedness. 
Today I will talk about three workforce issues that if improved would 
strengthen FEMA's ability to carry out its emergency management and 
preparedness responsibilities: Recruitment, hiring, and retention.
    FEMA employees work to make victims whole again after natural and 
human-created disasters. We are first responders, but we stay on the 
ground, sometimes for months or years, to ensure that the Americans 
affected by natural and human-made disasters can return to normalcy and 
rebuild their lives. We are the urban search-and-rescue officers who 
search for survivors and non-survivors in burning cars and flooded 
homes. We are the safety officers who ensure downed power lines do not 
electrocute survivors and toxins in flood waters do not infect 
communities. FEMA firefighters and police officers work hand-in-hand 
with State and local emergency management agencies to ensure crime is 
mitigated and fires do not harm survivors. We are the claims adjusters 
who work to make victims whole after their homes have been destroyed. 
We are the logisticians who compile data and predict when and where 
future disasters will occur. We are the grant and contract officers who 
ensure needs are met in the aftermath of destruction.
    The last 5 years have been historically active for FEMA's disaster 
response. Our members responded to hundreds of disasters, including the 
recent tornadoes in Alabama; Hurricane Harvey in Houston, Texas; 
Hurricane Irma off the coast of Florida; Hurricane Maria in Puerto 
Rico; Hurricane Michael, Tropical Cyclones in the Pacific Northwest in 
Sai Pan, historic wildfires in California; the eruption of the Kilauea 
volcano in Hawaii; and flooding in Kentucky, Pennsylvania, and 
Maryland.
    I came to FEMA as a 23-year Army veteran because of FEMA's mission 
to reduce the loss of life and property and protect our institutions 
from all hazards. I was deployed to Iraq, Afghanistan, Bosnia, and 
Somalia. In the Army, I learned a lot about the importance of 
maintaining high morale and team building and I brought those lessons 
with me to FEMA. Both are essential to maximize performance and are 
particularly critical in times of crisis. I, and most of my colleagues, 
agree that FEMA's mission is too important to let the agency go without 
the resources needed to serve, help, and protect the American public. 
Now, allow me to address the top three workplace obstacles to improving 
emergency management and preparedness I mentioned: (1) Recruitment, (2) 
hiring, and (3) retention.
    To improve emergency management and preparedness we must improve 
how FEMA recruits qualified candidates. Candidates for employment wait 
too long to receive a security clearance for employment at FEMA. This 
backlog of security clearances is a significant obstacle when trying to 
recruit qualified candidates.
    For example, FEMA struggles to recruit firefighters and police 
officers at Mount Weather Emergency Operations Center in Bluemont, 
Virginia because of the delayed security clearance process and is 
understaffed and currently has a deficit of firefighters and police 
officers. Their schedules are erratic, and their leave requests are 
denied because of the low staffing levels. The Mount Weather Emergency 
Operations Center is used as a major relocation site for the highest 
level of civilian and military officials in case of National disaster. 
Firefighters and police officers are wary to apply because they know 
their security clearance process is so lengthy.
    If more permanent full-time security background investigators were 
hired to process security clearances at FEMA, more firefighters and 
police officers could be on-boarded at Mount Weather and elsewhere. If 
FEMA hired more qualified and experienced permanent full-time 
employees, the agency would be better able to recruit the workers 
needed.
    FEMA employees are hired through a rigorous, competitive, merit-
based examination process that includes application of veteran's 
preference. The number of permanent full-time employees needed to carry 
out successful emergency management and preparedness cannot be short-
changed. Our employees are over-worked, under-resourced, under-staffed, 
and frequently deployed to disaster zones without adequate recuperation 
time. Permanent full-time employees are outnumbered at FEMA by non-
permanent employees. In 1988 the Stafford Act created two sets of non-
permanent employees to be hired during disasters: These include (1) 
Cadre of On-Call Recovery/Response Employees (CORE) and (2) Disaster 
Response Workers (DRW) Temporary Workers. CORE and DRW employees are 
brought on using an expedited hiring process during disasters. For 
purposes of this testimony I will refer to CORE and DRW employees as 
Stafford Act employees.
    Stafford Act employees are used to supplement permanent employees, 
which too often results in vacancies for permanent full-time positions 
going unfilled for extensive periods of time. The agency keeps Stafford 
Act employees on for much longer than their 2- to 4-year contracts. 
Stafford Act employees should be deployed to disaster zones for a 
specified amount of time to respond to a specific disaster. These 
positions were not designed to work with or replace permanent full-time 
employees on non-disaster work; however, because there is such a need 
for permanent full-time employees at FEMA, it is not uncommon for 
Stafford Act employees to work outside of their job descriptions.
    Additional funding and resources are needed for more permanent 
full-time staff. Identifying permanent full-time vacancies would help 
improve FEMA emergency management and preparedness and would allow FEMA 
to hire the number of permanent full-time staff that is truly needed. A 
``desk audit'' is needed to accurately calculate the number of 
permanent full-time current employees and determine where additional 
permanent full-time employees are needed to address emergency 
management and preparedness.
    Some Stafford Act employees have been working at FEMA for much 
longer than their designated employment period. Some have worked longer 
than 10 years in Stafford Act positions. The agency continues to 
transfer their contracts to new disasters without giving them a 
permanent full-time position. There are discrepancies with regard to 
the agency's count of the number of permanent full-time employees that 
FEMA needs. Stafford Act employees are, in effect, permanently filling 
vacant permanent positions. Stafford Act employees are filling vacant 
permanent positions without the benefits and rights of Title 5 
permanent full-time employees. Permanent full-time employees need to be 
hired for these vacancies. These employees have on-the-job experience 
and should be afforded the opportunity to apply for permanent positions 
when they become available. FEMA must hire more permanent full-time 
employees who are emergency management, safety, and program management 
professionals hired for their skills and expertise.
    An accounting of the number of Stafford Act employees who have 
worked at FEMA for an extended long-term period is also needed. 
Positions where Stafford Act employees have been employed for a long 
time should be made into permanent full-time positions.
    FEMA is unable to keep in-house talent at the agency. Stafford Act 
employees do not have full union rights and protections which help 
improve workplace safety, labor management relations and communication 
in the workplace. When Stafford Act employees experience issues in the 
workplace, they often feel as though they have little to no rights. 
Title 5 permanent full-time employees do have these workplace rights 
and protections and work with the union to help them ensure that they 
have what is needed for them to successfully fulfill their job duties 
with dignity and respect. The union cannot represent most Stafford Act 
employees when they experience workplace discrimination and harassment.
    FEMA should create a path toward permanent full-time employment for 
Stafford Act employees, so that all agency employees have workplace 
rights and ensure that FEMA is more disaster ready.
    To improve emergency management and preparedness more permanent 
full-time employees must be hired. Robust funding is needed to address 
the on-going recruitment and retention issues. Too much is at stake for 
American families across the Nation to allow anything less.
    This concludes my statement. I will be happy to answer any 
questions that you may have.

    Mr. Payne. Thank you, Mr. Reaves.
    I now recognize Mr. Senterfitt to summarize his statement, 
for 5 minutes.

  STATEMENT OF CHIEF MARTIN ``MARTY'' SENTERFITT, FIRE DEPUTY 
   CHIEF & DIRECTOR OF EMERGENCY MANAGEMENT, MONROE COUNTY, 
                            FLORIDA

    Chief Senterfitt. Thank you Chairman Payne, Ranking Member 
King, and Members of the subcommittee for holding this hearing 
today.
    I am Martin Senterfitt, the director of emergency 
management for Monroe County, the Florida Keys.
    I am pleased to be here to address coordination issues 
between FEMA and County Emergency Management programs and to 
perhaps offer a solution to improve our future and 
interactions.
    As we examine these issues and concerns, I want to first 
recognize the incredible work being done within FEMA.
    I could spend hours recounting positive stories of FEMA 
successes and the incredible dedication and hard work of its 
employees.
    But I recognize today's discussion is focused on 
improvement, and my time is limited. Therefore, I will move 
forward and speak on an issue I feel is important--the 
relationship dynamics between FEMA and local emergency 
management.
    A major role of FEMA is to expedite funding to disaster-
impacted areas. We all recognize the necessity of fiscal 
oversight to prevent waste and fraud. Unfortunately, this 
oversight occurs months or years after the disaster by persons 
sitting in an office.
    These individuals have limited context as to the 
environment in which these decisions were made, or the 
extenuating circumstances that may have existed.
    Because of this lack of awareness, these individuals may 
then make subjective decisions to deny reimbursements, which 
then begins this chain reaction of appeals and delays, legal 
fees, and stress.
    Fortunately, in many of these circumstances, the two 
parties are often able to work to a positive solution as high-
level executives are engaged to have authority within FEMA to 
use discretion and common sense, and make case-by-case rulings.
    Unfortunately, this means reimbursement is delayed months 
or years, and the impacted county is forced to pay interest on 
loans and face fiscal challenges while it is recovering from a 
disaster.
    Recognizing the need of oversight, I suggest we engage a 
solution that is already right in front of us.
    FEMA often inserts a FEMA representative into the local 
emergency operation center, who then ride out the storm with us 
and report situational awareness updates to the FEMA structure.
    Unfortunately, this person is often limited by FEMA process 
and policy, as to what they can say or what they can suggest. 
They observe, but do not actively participate.
    In my opinion, after watching many FEMA employees interact 
in disaster environments, it appears ground-level FEMA 
employees are not allowed to give suggestions or in any way 
commit FEMA to action. This is, perhaps, due to a 
hypersensitivity to the liability or fear of overcommitting.
    Most issues must be pushed up the chain and then waited for 
a decision or answer.
    But let me emphasize. These FEMA employees are highly 
competent and capable of providing local communities priceless 
advice and input. But it appears they are limited by 
organizational culture and policies in a top-down management 
structure.
    Imagine a different scenario. FEMA inserts a highly-trained 
employee into the local EOC that partners with the county 
emergency manager and provides advice, input, and a second set 
of eyes to evaluate the decisions being made.
    Fiscal oversight can occur real-time during the disaster, 
and the FEMA representative will have full awareness of the 
environment in which these decisions are being made.
    Let me emphasize. Potential mistakes can be prevented, 
instead of appealed. Once concurrence is reached, both parties 
can sign off and our first level of oversight is complete.
    A State employee can also be added to this process, which 
will allow concurrence at the local, State, and Federal level. 
This solution provides a sounding board for the local emergency 
manager, and should provide enough oversight to expedite the 
reimbursement process.
    In my EOC, I require that all local agencies provide 
individuals who have the authority to act on behalf of their 
agencies. That is what makes an EOC effective. I want the same 
level of commitment from FEMA.
    If we implement this change, I will have a FEMA partner in 
my EOC, not a FEMA observer. Mistakes can be avoided, not 
disputed years later.
    I thank you for your time, and look forward to answering 
any questions you may have.
    [The prepared statement of Chief Senterfitt follows:]
           Prepared Statement of Martin ``Marty'' Senterfitt
                             March 13, 2019
                              introduction
    Thank you Chairman Payne, Ranking Member King, and Members of this 
subcommittee for holding this hearing today. I am Martin Senterfitt, 
the director of emergency management for Monroe County, Florida--the 
Florida Keys. I am pleased to be here to address coordination issues 
between FEMA and County Emergency Management programs and to offer a 
solution to improve our future interactions.
    As we examine these issues and concerns I want to first recognize 
the incredible work being done within FEMA. I could spend hours 
recounting positive stories of FEMA successes and the incredible 
dedication and hard work of its employees, but I recognize today's 
discussion is focused on improvement and my time is limited, therefore 
I will move forward and speak on an issue I feel is important; the 
relationship dynamics between FEMA and local emergency management.
    A major role of FEMA is to expedite funding to disaster impact 
areas. We all recognize the necessity of fiscal oversight to prevent 
waste and fraud. Unfortunately, this oversight occurs months or years 
after the disaster by persons sitting in an office. These individuals 
have limited context as to the environment in which the decisions were 
made or the extenuating circumstances that may have existed. Because of 
this lack of awareness, these individuals may then make subjective 
decisions to deny reimbursements which then begins a chain reaction of 
appeals and delays, legal fees, and stress.
    Fortunately, in many of these circumstances, the two parties are 
often able to work to a positive solution as higher-level executives 
are engaged who have the authority to use discretion and common sense 
and make case-by-case rulings. Unfortunately, this means reimbursement 
is delayed months or years and the impacted county is forced to pay 
interest on loans and face fiscal challenges while it is recovering 
from a disaster.
    Recognizing the need for oversight, I suggest we engage a solution 
that is already right in front of us. FEMA often inserts a FEMA 
representative into the local Emergency Operations Center (EOC), who 
ride out the storm with us and then reports situational awareness 
updates to the FEMA structure. Unfortunately, this person is often 
limited by FEMA process and policy as to what they can say or suggest. 
They observe but do not actively participate.
    In my opinion, after watching many FEMA employees interact in 
disaster environments, ground-level FEMA employees are not allowed to 
give suggestions or in any way commit FEMA to action. This is perhaps 
due to a hyper-sensitivity to liability or fear of over-committing. 
Most issues must be pushed up the chain and then wait for a decision or 
answer. But let me emphasize, these FEMA employees are highly competent 
and capable of providing local communities' priceless advice and input, 
but it appears they are limited by organizational culture and policies 
and a top-down management structure.
    Imagine a different scenario . . . 
    FEMA inserts a highly-trained employee into the local EOC that 
partners with the County Emergency Manager and provides advice, input, 
and a second set of eyes to evaluate the decisions being made. Fiscal 
oversight can occur real-time, during the event, and the FEMA 
representative will have full awareness of the environment in which the 
decisions are being made. Let me emphasize, potential mistakes can be 
prevented instead of appealed. Once concurrence is reached, both 
parties can sign off and our first level of oversight is complete. A 
State employee can also be added to this process which will allow 
concurrence at the local, State, and Federal level. This solution 
provides a sounding board for the local emergency manager and should 
provide enough oversight to expedite the reimbursement process.
    In my EOC I require that all local agencies to provide individuals 
who have the authority to act on their agencies' behalf. That is what 
makes an EOC effective. I want the same level of commitment from FEMA.
    If we implement this change I will have a FEMA partner in my EOC, 
not an FEMA observer, and mistakes can be avoided, not disputed years 
later.
    I thank you for your time and look forward to answering any 
questions you may have.

    Mr. Payne. Thank you for your testimony.
    I now recognize Chief Waters to summarize his statement, 
for 5 minutes.

   STATEMENT OF CHIEF JAMES R. WATERS, COUNTERTERRORISM, NYPD

    Chief Waters. Good afternoon, Chairman Payne, Ranking 
Member King, Member Rose, and Members of the committee. I am 
James Waters, chief of the Counterterrorism Bureau of the New 
York City Police Department.
    On behalf of Police Commissioner O'Neill and Mayor de 
Blasio, I am pleased to testify before your subcommittee to 
discuss emergency preparedness, as well as how our partnerships 
and the funding you and your colleagues appropriate, has 
supported the NYPD's efforts to secure New York City.
    I believe we would all agree that the concept of emergency 
preparedness should not imply a reactive posture.
    With more than 38 years of service to the NYPD, including 
16 years overseeing our counterterrorism operations, I can tell 
you with the highest degree of certainty that the NYPD does not 
take such an approach.
    Our fundamental belief is that the emergency preparedness 
is driven by the proactive posture aimed at preventing an 
attack and building resilience into everything we do.
    Our ability to do this is a direct result of successful 
collaboration with our Federal partners and the significant 
funding that the Federal Government provides our city.
    Funding that, eliminated, reduced or, frankly, not 
increased, will result in an erosion of our capabilities, 
termination of many of our initiatives that I will talk about 
today, and a significant limitation of our overall preparedness 
posture.
    The NYPD relies on Federal funding to strengthen emergency 
preparedness in many important ways. This funding staffs our 
counterterrorism and intelligence bureaus, and purchases 
critical detection and response equipment, like vapor wake 
dogs.
    It places radiation and chemical sensors in fixed and 
mobile locations, in order to find radioactive materials before 
they reach our city limits.
    It provides comprehensive training and safety equipment to 
our offices responding to CBRN attacks, as well as active-
shooter incidents. Those are just a few examples of the key 
counterterrorism priorities and strategies.
    The bureau which I oversee has wide-ranging 
responsibilities. It is comprised of specialized personnel and 
assets dedicated to preventing acts of terrorism or mass 
casualty events in New York City.
    To this end, the Bureau conducts extensive planning, 
training, and operational coordination within the NYPD and its 
security partners, including deploying highly-skilled critical 
response command teams, and advanced threat detection 
technologies across the city.
    Our intergovernmental partnerships are significant. We are 
part of the joint terrorism task force, spearhead initiatives 
like Operation Sentry, and a part of the Securing the Cities 
initiative, funded by the Department of Homeland Security and 
aimed at protecting against a radiological attack, like a dirty 
bomb.
    Our private-sector partnerships are unmatched. These joint 
ventures support our Federally-funded Domain Awareness System, 
or DAS.
    This system receives data from real-time sensors, including 
radiological and chemical sensors--information from 9-1-1 
calls, and one-way live feed from CCTV cameras, and allows us 
to view countless locations around the city from one 
centralized location.
    Our private-sector partners number approximately 20,000, 
and as part of an initiative called NYPD Shield, represent 
almost every sector of industry.
    We provide information to private-sector partners to help 
them secure their facilities and employees. In turn, they share 
information and access to help us secure the city.
    We continue to see greater funding levels that are 
commensurate with the unique position in which New York City 
finds itself, at the top of the terrorist target list.
    In the 17 years since September 11, the NYPD and our 
partners have uncovered over 2 dozen terrorist plots against 
the city. In most cases, they have been thwarted by the efforts 
of the NYPD and the FBI JTTF.
    However, we are not able to stop all of them. Tragedies, 
such as the West Side Highway vehicle-ramming attack, the 
Chelsea bombing, and the subway bombing are examples of 
continuing need to improve and expand our counterterrorism 
apparatus.
    Port and transportation, homeland security grants, have not 
been increased for years, which could also counter terror--I am 
sorry--counterterrorism apparatus.
    The threat is ever-present. But as we have seen over the 
past several years, it is also dynamic and becoming 
increasingly decentralized. Thus, harder to detect.
    As the nature of the threat changes, so must our response. 
With additional funding above the current levels, the NYPD 
would be able to enhance a proactive posture by expanding 
intelligence-gathering capabilities, increasing deployments in 
critical areas, purchasing and employing cutting-edge 
technology, expanding collaboration and partnerships, all to 
strengthen its emergency response capabilities.
    We are facing a new and, potentially, lethal threat, one 
that the NYPD is prohibited from effectively countering.
    Though we have not yet seen it here in the United States, 
terror groups, such as ISIS and al-Qaeda, have incorporated 
unmanned aircraft systems, or drones in battle overseas.
    The NYPD recommends amending the Federal Code to allow 
State and local governments to purchase jamming technology for 
use against drones in select circumstances with proper 
oversight.
    Recently DHS and DOJ were empowered by law to use such 
technology. However, our Federal partners simply do not have 
the resources to ensure the level of coverage for New York 
City.
    The NYPD is ready, willing, and able to deploy this option 
if given the authority, and will train select members of the 
department to respond swiftly anywhere in the 5 boroughs. Mere 
moments of delay could mean the difference between successfully 
stopping an attack or catastrophe.
    At the NYPD, our philosophy is simple. We have to gather 
the best intelligence available, utilize the most up-to-date 
technology, expand partnerships, take proactive measures to 
identify and neutralize threats, and react to natural disasters 
and other mass-scale events in a manner which ensures public 
safety and prevents the loss of life, all while remaining 
committed to protecting individual liberties.
    Over 17 years since September 11, New York City enjoys the 
distinction of being the safest big city in America. It is also 
commercially vibrant, culturally diverse, and free.
    We can claim these successes are due in no small measure, 
to the approximately 58,000 uniformed and civilian members of 
the New York City Police Department, the partnerships we have 
built and the assistance we receive from the Federal 
Government, which has proven itself a vital partner in the face 
of an ever-present threat.
    Thank you again for your opportunity to testify here today, 
sir. I am happy to answer your questions.
    [The prepared statement of Chief Waters follows:]
                 Prepared Statement of James R. Waters
                             March 13, 2019
    Good afternoon Chair Payne, Ranking Member King, Member Rose, and 
Members of the subcommittee. I am James Waters, chief of the 
Counterterrorism Bureau of the New York Police Department (NYPD). On 
behalf of Police Commissioner James P. O'Neill and Mayor Bill de 
Blasio, I am pleased to testify before your subcommittee to discuss 
emergency preparedness as well as how our partnerships and the funding 
you and your colleagues appropriate has supported the NYPD's efforts to 
secure New York City.
    I believe we would all agree that the concept of emergency 
preparedness should not imply a reactive posture. We cannot take a 
posture that accepts there is nothing we can do to prevent an attack 
and instead should merely prepare for the inevitability of it happening 
and how we should respond. With more than 16 years of experience 
overseeing NYPD's counterterrorism operations, first as the commanding 
officer of the Joint Terrorism Task Force (JTTF) then as chief of 
counterterrorism, I can tell you with the highest degree of certainty 
that the NYPD does not take such an approach. While we leverage every 
one of our resources and partnerships to train and equip our personnel 
and ready our city for man-made and natural catastrophes, our 
fundamental belief is that emergency preparedness is driven by a 
proactive posture aimed at preventing an attack on our city and 
building resilience into our policies, procedures, people, and 
infrastructure. However, there should be no mistaking it: Whether 
proactive or reactive, our ability to prevent or be adequately prepared 
for catastrophic events is dependent in no small part on our successful 
collaboration with our Federal partners and the significant funding 
which the Federal Government provides our city. Funding that, if 
eliminated, reduced, or frankly not increased, will result in an 
erosion of our capabilities, cessation of many of the initiatives that 
I will talk about today, and a significant limitation of our overall 
emergency preparedness posture.
    Although New York City has become the safest big city in the 
Nation, it remains the primary target of violent extremists, both 
foreign and home-grown. The attacks of September 11, 2001, forever 
changed how the NYPD views its mission, and following that tragedy, the 
Department recognized that we must be an active participant in 
preventing terrorist attacks. Soon after that horrific attack, the NYPD 
became the first police department in the country to develop its own 
robust counterterrorism infrastructure, operating throughout the city, 
country, and the world to develop intelligence and techniques to combat 
this ever-evolving threat and bolstering our ability to respond to 
these attacks and other mass-scale emergency events. Vital to this 
effort has been collaboration and information sharing with other city 
and State agencies, neighboring States, the private sector and, 
especially, the Federal Government.
    We have worked meticulously to build this investigative and 
emergency response infrastructure, while protecting and upholding the 
Constitutional rights and liberties accorded to those who live, work, 
and visit New York City--but we recognize that the specter of an attack 
is always looming. In the last 17 years, the NYPD and our partners have 
uncovered over 2 dozen terrorist plots against our city. In most cases, 
they have been thwarted by the efforts of the NYPD and the FBI-NYPD 
JTTF.
    Tragically, we could not stop all of them. In September 2016, an 
individual inspired by al-Qaeda set off home-made pressure cooker bombs 
in the Chelsea neighborhood of Manhattan and in Seaside Park, New 
Jersey, injuring 30 people. Multiple additional unexploded devices were 
subsequently discovered. This case highlights that although our 
proactive efforts could not prevent this attack, our reactive 
preparedness resulted in the immediate activation of partnerships and 
plans that quickly located the perpetrator and the other devices before 
more havoc could be wreaked. Collaboration between the FBI, ATF, our 
New Jersey partners, and the NYPD, among others, led to this 
individual's capture and he is currently serving multiple life 
sentences.
    On October 31, 2017, an ISIS-inspired extremist used a rented truck 
to mow down innocent cyclists and pedestrians on the West Side Highway 
running path in Manhattan and near Ground Zero, killing 8. The 
collaboration between the NYPD and the FBI led to a fruitful 
investigation which resulted in Federal charges of lending support to a 
terrorist organization, in addition to murder charges. This individual 
will be tried later this year. In December 2017, an ISIS-inspired 
extremist attempted a suicide bombing when he set off a home-made 
explosive device at the Port Authority Bus Terminal subway station in 
Manhattan that injured 3 individuals and himself. Once again, the 
collaboration between the NYPD and its State and Federal partners 
resulted in a successful investigation which led to a guilty verdict. 
Most recently, between October 22 and November 2 of last year, an 
individual sent explosive devices through the mail to numerous elected 
officials and high-profile private citizens, in addition to a news 
outlet. This attack spanned States up and down the East Coast and as 
far west as California. We are grateful that there was no loss of life 
as a result of this incident, and proud of the coordinated effort that 
included law enforcement from multiple localities, States and the 
Federal Government that located all of the devices, and which resulted 
in the capture of the individual responsible. These attacks strengthen 
our resolve to prevent future carnage.
    The NYPD's Critical Response Command (CRC) is one of our first 
lines of defense against any threat. An elite squad, with officers 
trained in special weapons, long guns, explosive trace detection, and 
radiological and nuclear awareness, who regularly respond quickly to 
any potential terrorist attack across the city, including active-
shooter incidents. This team, which is central to the Counterterrorism 
Bureau's proactive counterterrorism mission, conducts daily 
deployments, saturating high probability targets with a uniformed 
presence aimed at disrupting terrorist planning operations and 
deterring and preventing attacks. But the Counterterrorism Bureau has a 
mandate broader than the CRC's operations: The Bureau has wide-ranging 
responsibilities that include designing and implementing large-scale 
counterterrorism projects; conducting counterterrorism training for the 
entire patrol force and other law enforcement agencies; identifying 
critical infrastructure sites and developing protective strategies for 
such sites; researching, testing and developing plans for the use of 
emerging technologies used to detect and combat chemical, biological, 
radiological, nuclear, and explosive weapons; developing systems and 
programs to increase harbor security, which includes the pro-active 
deployment and mapping of background radiation in the Port of New York 
and New Jersey; and interfacing with the NYC Office of Emergency 
Management, which coordinates the city's response to mass-scale events.
    Our emergency prevention apparatus is not limited to the important 
work that our dedicated professionals conduct each day. We frequently 
work with other Government agencies to help protect our city. Most 
notably, the NYPD is a member of the Joint Terrorism Task Force, led by 
the FBI, which combines the resources of multiple law enforcement 
agencies to investigate and prevent terrorist attacks. Additional 
initiatives include Operation SENTRY, which consists of regular 
meetings with law enforcement agencies from around the country in order 
to share information and training techniques, and to pursue joint 
investigative avenues. At last count there are 275 participating law 
enforcement partners. Law enforcement in this country cannot be content 
to merely focus on activity in their own jurisdictions. Terrorist plots 
can be planned on-line or discussed in one part of the country and 
executed in another. This is especially the case with attacks that are 
perpetrated by those inspired to act by terrorist groups, rather than 
receiving information, instructions, or directions from them (also 
known commonly as ``directed'' attacks). Information silos can be 
deadly and Operation SENTRY is designed to breakdown walls between 
jurisdictions.
    The NYPD also participates in Multi-Agency Super Surges which are 
joint operations to focus manpower at sensitive transit locations 
conducted with Port Authority Police, Amtrak Police, MTA Police, New 
Jersey Transit Police, the FBI, TSA, and the National Guard SHIELD 
Group. These collaborative efforts also include the Securing the Cities 
Initiative, which is a Department of Homeland Security (DHS) funded 
initiative between the NYPD and regional law enforcement partners to 
protect against a radiological attack like a ``dirty bomb''. As a part 
of this effort, radiation detection equipment was installed in 
neighboring jurisdictions and at key points of entry into the 5 
boroughs so that the city is virtually ringed with a radiological alarm 
system. Additionally, the DHS Office of Intelligence and Analysis (I&A) 
certified a Sensitive Compartmented Information Facility (SCIF) at NYPD 
Headquarters that supports Classified information sharing integral to 
the NYPD's counterterror mission. We also have personnel from I&A 
assigned to New York City in addition to a DHS special security officer 
assigned full-time to manage SCIF operations. The DHS intelligence 
analyst assigned to the NYPD sits with our Intelligence Bureau's cadre 
of intelligence research specialists and proactively shares DHS and 
intelligence community information with the NYPD. This has resulted in 
leads for existing investigations, new investigations being opened, and 
two joint finished intelligence products over the past year alone. Our 
civilian intelligence research specialists, who are also funded by DHS, 
work hand-in-hand with our uniformed members to detect and disrupt 
threats to the city, in addition to providing critical strategic 
intelligence analysis.
    In addition to partnerships with the Federal Government, other 
States and localities, and foreign governments, we have increasingly 
partnered with the private sector. These partnerships are instrumental. 
Our public-private initiatives, interconnected yet distinct, begin with 
our Federally-funded Domain Awareness System (DAS), which receives data 
from real-time sensors, including radiological and chemical sensors, 
ShotSpotter, information from 9-1-1 calls, and live feeds from CCTV 
cameras around the city. Not all of these cameras are city-owned or -
operated. In fact, most of them are not. They belong to private 
entities that have chosen to partner with us, providing encrypted one-
way access to their cameras as well as other information, in our 
collective effort to keep the city and its millions of inhabitants 
safe. This information, including camera feeds, can also be accessed by 
NYPD officers on their Department-issued mobile devices in real time.
    The Lower Manhattan Security Initiative and the Midtown Manhattan 
Security Initiative are the backbones of DAS, and are great examples of 
additional steps the NYPD takes, in partnership with the private 
sector. Lower Manhattan and Midtown Manhattan contain many of the 
country's most attractive locations for attacks, and businesses located 
within these sensitive areas have allowed us to access their cameras, 
technology, and security personnel as force multipliers, allowing the 
NYPD to better prevent terrorist attacks. This collaboration includes 
Operation Nexus, where the NYPD works with businesses throughout the 
Nation to provide them with information to help them identify 
suspicious transactions that may be linked to terrorist plots. Our 
private-sector partnerships also includes an initiative called NYPD 
SHIELD, which established a two-way line of communication and 
information sharing between the NYPD and approximately 20,000 private-
sector members from businesses and organizations throughout the 
country, representing almost every sector of industry and Government. 
The information we share enables us to better secure our city and 
allows businesses, both individually and collectively as industries, to 
enhance their own security.
    The NYPD relies on Federal funding to protect New York City against 
terrorist attacks and to strengthen emergency preparedness, including 
the security of critical transportation and port infrastructure. This 
funding has helped staff our counterterrorism and intelligence bureaus 
and purchase critical detection and response equipment. It allows the 
Department to purchase, train, and deploy vapor wake dogs, who are able 
to detect explosive particles. In addition, it enables us to place 
radiation and chemical sensors in fixed high-profile locations and in a 
variety of mobile conveyances in order to expand our coverage to 
include likely points and paths of entry for these dangerous materials; 
this allows us to find radioactive material before they ever reach our 
city limits. These appropriations have also made it possible to provide 
comprehensive training and safety equipment to our officers responding 
to explosive, chemical, biological, and radiological incidents, as well 
as training officers to respond to active-shooter incidents so they can 
engage and end coordinated terrorist attacks. This vital funding also 
provides critical instruction to officers in life-saving techniques 
that can be implemented during an on-going attack, in the effort to 
save lives before it is safe enough for medical personnel to enter an 
active crime scene.
    The support we receive from the Federal Government in the form of 
funding, as well as our relationships with our Federal law enforcement 
partners have been and continues to be invaluable. However, we continue 
to seek greater funding levels that are commensurate with the unique 
position in which New York City finds itself--at the top of the 
terrorist target list. The identification of plots targeting our city 
is becoming increasingly challenging as we are seeing more and more 
attackers becoming inspired rather than directed. Extremist groups are 
increasingly using this cost-efficient method to recruit, educate, and 
operationalize their deadly agenda. The traditional terrorist 
recruitment, training and plotting framework, where sympathizers would 
be identified and brought to established locations around the globe for 
training and where terror plots were conceived, prepared, and 
operationalized, is quickly being substituted. These locations are 
becoming less commonplace. Instead, the internet is used to identify, 
influence, train, and instruct recruits. This emerging and expanding 
decentralized methodology is making it increasingly more difficult for 
law enforcement to identify and detect radicalized individuals, terror 
plots in their planning stages and networks of conspirators, as plots 
are hatched and attacks carried out by lone wolves. With additional 
funding above and beyond the current levels, the NYPD could enhance its 
proactive, preventative posture by expanding its intelligence-gathering 
capabilities, increasing deployments in critical areas of the city, 
purchasing and employing the most current and cutting-edge technology, 
enhancing and expanding its collaborative efforts, as well as 
continuing to develop its emergency response capabilities in the event 
a tragic incident occurs.
    While I have outlined the various steps the NYPD takes to address 
the constant threat to our city and to manage emergencies, there is one 
threat that has emerged which has the potential of being lethal and 
which the Department is prohibited from effectively countering as a 
matter of Federal law. Though we have yet to see it here in the United 
States, terror groups such as ISIS and al-Qaeda have incorporated 
unmanned aircraft systems, or drones, in battle overseas. As we have 
seen this past December in London, where illegal drone flights brought 
an entire airport to a standstill for 17 hours, when we are unable to 
disable or disrupt a drone posing a threat, we are at its mercy.
    Currently, Federal law prohibits State and local governments from 
using technology that could be used to jam a drone's signal. 
Additionally, current law provides no pathway for State or local 
governments to apply to the FCC for an exception from this prohibition. 
The NYPD recommends amending Title 47 of the Federal Code to allow 
State and local governments to purchase jamming technology to use 
against unmanned aircraft systems in select circumstances with proper 
oversight. Recently, DHS and the Department of Justice (DOJ) were 
empowered by law to use such technology. However, our DHS and DOJ 
partners simply do not have the resources to ensure the level of 
geographic coverage New York City requires against this threat, no 
matter their best efforts. The difficulty that DHS and DOJ will have 
responding to this threat in NYC is magnified in places where they do 
not have permanent field offices. The NYPD is ready, willing, and able 
to deploy this option if given the authority. Select members of the 
NYPD could be trained in its use and ready to respond swiftly anywhere 
in the 5 boroughs. Mere moments of delay could mean the difference 
between successfully stopping an attack and catastrophe.
    Given that we are all here to speak about emergency preparedness, I 
wish to highlight a vital component to any such preparation and 
response: Effective communication systems that enable our first 
responders to communicate. To this end I would be remiss if I did not 
take a moment to talk about the T-Band and how vitally important it is 
to the NYPD and its regional law enforcement and emergency response 
partners, and first responders Nation-wide. Aside from large-scale 
natural disasters and terrorist attacks, such as Hurricane Sandy and 
the September 11 attacks, the Department receives nearly 10 million 9-
1-1 calls annually and patrols approximately 306 square miles of some 
of the most densely-populated geography in the Nation. The T-Band is a 
portion of the spectrum used in New York City and the surrounding 
region to support critical communication and provide regional 
interoperability among first responders. The NYPD and its regional 
partners have spent years and hundreds of millions of local, State, and 
Federal dollars to build and improve these T-Band networks, including 
in the subway and train tunnels in and around the city, the largest 
such tunnel system in the world. Under current law, portions of the T-
Band will be auctioned off to private interests beginning in 2021. This 
would squeeze first responders into smaller and smaller sections of the 
band, even as the demand on the band continues to increase. To be 
blunt, this would be catastrophic to public safety and emergency 
readiness and response. There is no viable alternative spectrum 
available for us to move to. For example, the entire New York City 
subway system is wired for T-Band and, learning from 9/11, the New York 
City building code now requires all new high-rise construction to be 
wired for T-Band as well. Cell phones do not allow the same type of 
immediate, multi-point communication that a police radio does. Even if 
there were a viable alternative, it would take years and billions of 
dollars to build up another communication infrastructure alongside the 
existing T-Band infrastructure. We would then have to seamlessly 
transfer all communications to the new system wholesale without a break 
in service, which would be, to put it lightly, next to impossible. And, 
given all of this, we would not even be able to guarantee it would work 
nearly as well as the T-Band systems we have spent years perfecting. On 
behalf of the NYPD, the FDNY, and the city of New York, we urge the 
House to pass the Don't Break Up the T-Band Act of 2019.
    Additionally, while we certainly are encouraged by steps taken by 
the FCC to improve the Wireless Emergency Alert (WEA) system, we urge 
the FCC to adopt rules that better allow us to respond to the full 
range of modern emergency scenarios, from hurricanes to terrorist 
attacks. When the city issued a WEA notification regarding the Chelsea 
Bomber in 2016 to every phone in the 5 boroughs, the millions of New 
Yorkers who wanted to help were merely given several lines of text with 
no picture. In this age of instant access to visual information via 
social media, we need to enhance our ability to rapidly and securely 
deliver comprehensive emergency information, including images, to the 
public. This information must come from a trusted source, like WEA, 
before unverified or incorrect information is shared widely on social 
media networks, sowing further confusion and panic. Pictures provide 
instant recognition and speak a universal language. They enable rapid 
response from every potential witness who could save lives through fast 
action. The lack of an ability to disseminate photographs and other 
multimedia highlights a weakness in the system. In the face of emerging 
threats, we need to remain on technology's cutting edge by using public 
information systems to their fullest capacity and, where necessary, 
improving those capabilities. In addition, as the nature of emergencies 
is their lack of predictability, the city continues to strongly urge 
Congress to eliminate the ability for mobile phone customers to opt out 
of WEA messages. Our Nation's threat environment has changed 
dramatically since the creation of WEA in 2006 and local public safety 
officials must have the unfettered ability to reach our constituents at 
a moment's notice.
    At the NYPD, our philosophy is simple: We have to gather the best 
intelligence available, utilize the most up-to-date technology, expand 
our partnerships, take proactive measures to identify and neutralize 
threats, and react to natural disasters and other mass-scale events in 
a manner which ensures public safety and prevents the loss of life, all 
while remaining committed to protecting individual liberties.
    Over 17 years after September 11, 2001, New York City enjoys the 
distinction of being the safest big city in America. It is also 
commercially vibrant, culturally diverse, and free. We can claim these 
successes are due, in no small measure, to the approximately 58,000 
uniformed and civilian members of the New York City Police Department, 
the partnerships we have built, and the assistance we receive from the 
Federal Government, which has proven itself a vital partner in the face 
of an ever-present threat.
    Thank you again for this opportunity to testify today. I am happy 
to answer any questions you may have.

    Mr. Payne. I would like to thank all the witnesses for 
their testimony, and remind each Member that he or she will 
have 5 minutes to question the panel.
    I now recognize myself for questions.
    Major Bucchere and Mr. Senterfitt, I want to ask you about 
a very troubling article last week from NPR that described how 
Federal disaster aid increases inequality after a disaster and 
how higher-income areas receive more aid than lower-income 
areas after a disaster.
    Another NPR story pointed to the Federal buy-outs of flood-
prone properties that have been concentrated in majority white 
districts, even though disasters and flooding affect everyone?
    Can you describe efforts that New Jersey takes on the State 
level, and Monroe County takes on a local level, to make sure 
that disaster recovery happens equitably across communities and 
low-income individuals and aren't being left behind?
    Major Bucchere. Yes, sir. In New Jersey, NJOEM takes a 
whole-community approach to all phases of emergency management. 
Prior to a disaster, we do several things to ensure that all 
communities are taken into account.
    We ensure that all 21 counties have a hazard mitigation 
plan. That county hazard mitigation plan is paid for with grant 
funding, without which the county and local municipalities 
would be ineligible for hazard mitigation funding at all.
    Some of the other things that we have done is, we have 
distributed over 400 generators across all 21 counties and over 
400 municipalities for power restoration across all 
communities.
    Last, we have re-engaged our community emergency response 
teams, which has proven vital, dispensing over 120 community 
emergency response team trailers, training 27,000 people and 
have a core group of 10,000 to help all walks of life.
    In regards to home buy-outs and elevations, New Jersey 
takes a risk-based approach, based on 3 criteria: Severe, 
repetitive loss, repetitive loss, and substantial damage.
    As a home rule State, each municipality decides the 
direction that they want to go in. Some municipalities take 
elevations in order to keep their tax base. Some prefer home 
buy-outs.
    One of the proactive things that has just happened in the 
State of New Jersey under Governor Murphy is, he has enacted 
the Office of Environmental Justice under the Department of 
Environmental Protection.
    They are a critical key emergency management partner with 
us, and we have begun to engage in meetings to ensure the fair 
treatment of all people, and to give all communities a voice.
    Mr. Payne. Thank you.
    Senterfitt.
    Chief Senterfitt. Thank you, Mr. Chairman.
    In Monroe County, we recognize the simple reality that 
disasters do have an adverse impact on the poorer populations 
of the community. That is directly related to the diminishing 
value of a dollar.
    If you, you know, if you only have $1,000, and you take a 
$1,000 impact, it changes your world. If you have $100,000 and 
you take a $1,000 impact, it is not as much of an impact. We 
recognize that.
    So we focus heavily on the poorest parts of our community. 
We have made sure that that is where we have placed our focus.
    We have opened a long-term recovery group with, not only 
the Government, but all of our non-profit partners, to make 
sure that we are digging into those needs to find out what is 
necessary and how we get these individuals back, you know, back 
to a reasonable level of life.
    In Monroe County we have seen a major impact on our 
workforce housing. Quite often, it is your workforce that is 
living at the ground level of these multi-story houses. When we 
receive 4, 6, 10 feet of water in the Florida Keys, it was the 
workforce housing that flooded out.
    These were the people that had the adverse impact. That is 
where we have been putting our focus and energy.
    I can say that FEMA has been right there with us the whole 
time, working with us, making sure that these needs are met. 
This is a conscious thought in the forefront of our minds, to 
make sure we are fair and equitable.
    Mr. Payne. OK. From the two of you, do you think there is 
anything FEMA could do to improve disaster relief for low-
income individuals very quickly?
    Chief Senterfitt. If I may, part of the--I read the NPR 
articles. Part of the challenge that I found with them is, they 
are comparing, not even apples to oranges, but apples to 
footballs.
    On one hand, they talk about the repetitive flood loss 
programs, but at the same time, they try to turn around and 
talk about assistance, rental housing. It is two totally 
different products.
    That I have seen, FEMA is doing everything they possibly 
can to be fair and equitable. But different programs are going 
to impact different communities.
    Repetitive flood loss is going to be more advantageous to 
the homeowner versus the renter. Whereas, temporary sheltering 
assistance is pretty much a process that only those that are at 
the lower economic scales are going to benefit from.
    So, I think, just to be careful, we have to look at all the 
programs individually. I think there is more research that 
needs to be done on this to make sure that we are not missing 
the boat somewhere.
    Mr. Payne. OK. Thank you.
    I yield to the gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman. As we saw with Sandy, 
and also if there is ever another terrorist attack in 
Manhattan, basically, New York and New Jersey are one region.
    So, I would just ask Chief Waters and Major Bucchere, how 
much cooperation is there between New York and New Jersey, 
specifically with the NYPD and New Jersey as far as emergency 
disasters, terrorist attacks, whatever?
    Major, do you want to go first?
    Major Bucchere. Yes, sir. We share a tremendous partner 
with the State of New York and NYPD, in particular, from the 
emergency management side of the house from our--and evacuation 
planning, to our investigative branch or participation in the 
JTTF, our regional operations and intelligence center and, 
certainly, our investigative branch.
    We feel like our partnership couldn't be stronger. We 
actively monitor NYPD's posture in preparedness and, also, in 
response to critical incidents and threats, and often similarly 
respond on the other side of the river.
    We have had several target-hardening operational responses, 
specifically, some of which occurred during holiday season, 
where members are going back and forth by rail and ferry across 
the river.
    So again, we share an extremely strong partnership. We 
embed members into lower Manhattan Security Initiative. We have 
a streamlined communication. I am glad to report that those 
partnerships are incredibly strong.
    Mr. King. Chief.
    Chief Waters. Sir, I agree with the other witness. In a 
word, seamless, sir. The transparency is there. It dates back 
many years. We work very well with the State police and the 
local police departments in New Jersey. We have members of the 
Joint Terrorism Task Force that are on the Newark side of the 
river working with New Jersey.
    We have members of our Intelligence Bureau that are 
assigned to New Jersey. We worked, going back to the Super Bowl 
several years ago, we spent quite a bit of time--I spent a year 
in the planning stages before the Super Bowl in 2014 with the 
Jersey State Police and all of the partners.
    As was already stated, we have members of New Jersey law 
enforcement in the lower Manhattan security or the Domain 
Awareness System residence. So it is seamless.
    Mr. King. In New York we have, obviously, Yankee Stadium, 
Citi Field, Arthur Ashe Stadium, Madison Square Garden. Jersey 
has MetLife Stadium.
    So recently the Dodgers had a drill in Dodgers Stadium. A 
practiced evacuation of the stands, in case of an attack. So is 
there anything similar to that, you know, not to give away any 
trade secrets, but are you prepared for that in New York? Also, 
will you be prepared for that in New Jersey?
    Chief.
    Chief Waters. So we are prepared. We do through a number of 
different programs in counterterrorism, first through the 
Shield program and the counterterrorism division.
    A lot of training with all of the employees in the private 
sector but, specifically, to your question, with all the 
employees of the different venues at sporting arenas, we deploy 
our critical response command and our strategic response group, 
highly-trained, heavily-armed officers to those locations, as 
well as our elite emergency service unit folks, and the bomb 
squad, to all of those venues for every event. So we are well-
prepared.
    Mr. King. Major.
    Major Bucchere. I would concur with Chief Waters. We have 
conducted several iterations of exercises over the years, 
certainly in preparations for hosting the Super Bowl and since. 
In addition, staffing MetLife with several members of our 
special operations section and tactical forces, including our 
bomb squad.
    In addition, we have also brought up the entire detect-and-
render-safe taskforce, a Federally grant-funded taskforce 
combined of explosive detection canine handlers and our bomb 
squads. And work in conjunction with all of our partners on 
contraflow and emergency evacuation procedures.
    Mr. King. Give some idea of the commitment, Chief Waters. 
How many personnel are in counterterrorism in NYPD? How many in 
the intel unit? How many in JTTF?
    Chief Waters. So the JTTF is the largest partner next to 
the FBI, with over 100 strong detectives, sergeants, 
lieutenants, all the way up to deputy chief.
    There are 1,000 people in the Counterterrorism Bureau that 
work each and every day through the bomb squad critical 
response command, lower Manhattan Security Initiative, the 
Counterterrorism Division, and the World Trade Center Command.
    Additionally, the Intelligence Bureau has just under 1,000 
strong, working and spread out throughout the region, not only 
New York City, but in New Jersey, Connecticut, and elsewhere. 
And around the world through their liaison program.
    Mr. King. If we have a second round, I will invite you into 
the issue of drones with you?
    Chief Waters. Yes, sir.
    Mr. King. I yield back. Thank you.
    Mr. Payne. Next we have the gentlelady from Illinois, Ms. 
Underwood.
    Ms. Underwood. Thank you, Chairman Payne, for organizing 
this hearing on the current state of our Nation's emergency 
management.
    I also want to thank our witnesses for your testimony today 
and for the work that you do to ensure our communities are 
better-prepared to respond to emergencies.
    I am particularly appreciative of your work, given my 
experience at the Office of the Assistant Secretary for 
Preparedness and Response at HHS, where I helped to coordinate 
preparedness and response efforts for natural disasters and 
emerging infectious diseases and the like--so first let me ask 
you, Mr. Reaves, right now, do you think you and your co-
workers at FEMA have all the resources and support that you 
need to do your jobs well?
    Mr. Reaves. Currently, we have 1,118 vacancies, just 
staffing vacancies, full-time, permanent full-time staffing 
vacancies so, of course, that negatively affects our 
preparedness levels.
    Do we have money dedicated to full-time funding? Yes. That 
is the traditional hurricane preparedness and training 
scenarios that we run through with our State and local partners 
every year.
    We have a shortened window because of the impact of the 
furlough and the 36 days of--usually we have from the end of 
November to the beginning of June to prepare for hurricane 
season again. Then, on the interim, we have flood season and 
tornado season between those.
    So it has really shortened our window to prepare for 
hurricane season. We are busting our butts trying to get ready.
    Ms. Underwood. Yes, sir. In your testimony, you wrote that 
this has been the, ``most active disaster season in recent 
history''. Can you tell us what you mean by that?
    Mr. Reaves. Yes, ma'am. The previous 5 years it is a better 
window to look at.
    We have been more active as a disaster response agency in 
the last 5 years than we have the previous 10 prior to that.
    We stayed deployed to one disaster or another. There has 
not been a recovery season, as traditionally the, you know, the 
traditional recovery season we get.
    So our employees aren't getting a lot of down time anymore, 
because of the volcanoes in Hawaii, or because of the wildfires 
in California, or because of the floods that subsequently 
follow the wildfires.
    So there is a shortened window of recuperation recovery 
time, and it is really impacting our membership.
    Ms. Underwood. I see. Thank you. I am from Illinois, which 
was hit by one of the worst tornado outbreaks in the State's 
history, back in December. Flooding in my district in Lake 
County and McHenry County, is a constant and growing threat.
    We can't ignore the scientific consensus that increasing 
the number and intensity of natural disasters are linked to 
climate change. It is personal in my community because the EPA 
has warned that climate change is likely to make flooding in 
Illinois even more frequent.
    This is for anybody on the panel. How are your 
organizations preparing for the future, as climate change and 
other factors contribute to this pattern? We are seeing a 
bigger and more frequent natural disasters.
    Major Bucchere. In New Jersey, as of 2019, our State hazard 
mitigation plan is being updated to examine the effects of 
climate change.
    As a result, we are taking the lead on this. All 21 
counties in the State of New Jersey's hazard mitigation plan 
will also examine the role of climate change.
    Chief Senterfitt. Further, we are partnering with the 
Department of Environmental Protection on a coastal resiliency 
plan. That plan is in development, and that will look at 
climate change from a long-term perspective.
    Moreover, it will, not only, with the hazard mitigation 
plan, where we look at the elevation of homes, the buy-out of 
homes, the coastal resiliency plan, we will look at critical 
infrastructure, the roadways, and other infrastructure.
    Ms. Underwood. What can Congress do to help you prepare for 
these future threats as they emerge?
    Major Bucchere. Certainly, any additional funding that 
Congress can provide for us to increase our programs, would be 
beneficial.
    Ms. Underwood. Thank you. I am a nurse, so I am also very 
aware of both the immediate and long-term public health 
implications of disasters.
    Even after debris is cleared, many people continue to 
suffer from lasting physical and mental health issues.
    As recent disasters have illustrated, the most vulnerable 
among us, including young children, the elderly and people who 
are mobility-impaired can be particularly susceptible to injury 
and illness following a disaster.
    So, Mr. Bucchere--sorry--I was interested to read about the 
training New Jersey has developed to promote preparedness for 
individuals with disabilities and others with access and 
functional needs.
    Can you just summarize what that training entails, and 
would you suggest to other States who want to implement those 
similar programs?
    Mr. Payne. Very quickly.
    Ms. Underwood. Sorry.
    Major Bucchere. Sure. We have a very active and robust 
training regimen.
    We have a full-time DAFN coordinator who coordinates our 
training. We also partner with our county and locals at the 
municipal level with the development of core advisory groups to 
take into account the entire DAFN community.
    I will mention one other thing very quickly, which is, we 
help assist and manage the register-ready program, and get the 
word out, in order that all individuals with any disability or 
access functional needs can register. Thereby, us being able to 
prepare and respond in an expeditious way to serve our entire 
community.
    Ms. Underwood. Excellent. Thank you so much for your work. 
Thank you all for being here today.
    Mr. Chairman, I yield back.
    Mr. Payne. Thank you.
    Now go to the gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman, Ranking Member King, 
colleagues. I look forward to working with you and serving with 
you on this very important subcommittee on disaster 
preparedness response and recovery.
    This is especially important to my district in Houston. As 
you know, we suffered through Hurricane Harvey, dumped over 33 
trillion gallons of rain over us.
    To understand that magnitude it is a block of rain 3 miles 
wide, 3 miles high and 3 miles long. That is a lot of water. A 
lot of residents had 6 or 7 feet of water.
    As we recovered from that disaster, it was quite amazing to 
see how local and State and Federal entities work together, and 
really, how the civic communities came out, the churches and 
the non-profits.
    I worked with Team Rubicon, specifically, which I know 
works both in Florida and New Jersey and New York. It is 
amazing to see the best of people come out when things go 
wrong.
    One thing I want to get at with all of you is--and I will 
start with Mr. Senterfitt. In your experience, is there a clear 
hierarchy and a unity of command in disaster management? I know 
it is a broad question but----
    Chief Senterfitt. Yes, there is. We use the incident 
management system very well. We tie the municipals, the locals, 
and the States together very well.
    You know, as my comments alluded to earlier, the one thing 
I want to do is get FEMA more engaged in that unity of command.
    Mr. Crenshaw. Right.
    Chief Senterfitt. Too often, they are kind-of at a distance 
and we could really use them as a partner at the table.
    Mr. Crenshaw. Right. My next question hits on that exactly. 
So go into a little bit more detail. How does that partnership 
look? What is the right way to think about it?
    Chief Senterfitt. You know, I say I need a partner, not an 
observer. I think it is just an organizational culture issue, 
where the FEMA people on the ground aren't allowed to engage 
and commit and actively participate, which then means we make 
decisions.
    We would love to have FEMA oversight right there. We make 
the best decisions we can. Then later we get denied, and then 
and reimbursement. Then we have to go through an appeals 
process.
    What I find most interesting is, I can watch the discomfort 
of the FEMA employees. They know the answers. They want to 
engage.
    Mr. Crenshaw. Yes.
    Chief Senterfitt. They want to be a part of the solution 
but the policy and process doesn't allow them to.
    Mr. Crenshaw. OK. Mr. Bucchere.
    Major Bucchere. Yes, sir.
    Mr. Crenshaw. We are all having trouble here. OK. In your 
testimony you mentioned the recovery efforts after Hurricane 
Sandy. In your experience would it be beneficial to consolidate 
disaster recovery money into FEMA rather than the current 
system which includes SBA, Army Corps of Engineers, DOD, HUD, 
HHS and Mr. Senterfitt--I am sorry. If you want to add on after 
Mr. Bucchere's answer that would be fine.
    Major Bucchere. In terms of the specific finances I would 
like to go back and take that to my recovery bureau and talk to 
the subject-matter experts and provide you with a written 
response for the record.
    Mr. Crenshaw. OK.
    Chief Senterfitt. Yes, sir, sometimes it is a challenge to 
try to find where all the money is at. It does get spread 
around a little bit and then we have to try to--as the disaster 
victims try to find which program should we be addressing at 
which time and for which amount. So anything we can do to 
streamline that process.
    The other big issue we are having there is the programs 
from a project management time line perspective do not connect. 
So a FEMA program will end at 18 months but the repetitive 
flood loss process may not occur until 3 years. So the 
homeowners or the renters may have a 12-month period where they 
are just kind-of left out on their own.
    So we need to get all those different programs and time 
line them out and make sure there is no break in continuum of 
care.
    Mr. Crenshaw. If you could follow up with our offices with 
more detail on that subject that would be much appreciated. 
Texas is doing its own research on this and we would like to 
come up with some solutions.
    One thing that happened in the city of Houston was that the 
city of Houston didn't modify local code allowing for 
manufactured housing and RV units outside of mobile home parks 
until more than 4 months later. That was a huge problem.
    Do you guys have any other examples where city and State 
laws get in the way of disaster recovery? What is the best way 
to deal with that when those things conflict?
    Chief Senterfitt. In Monroe County in the Florida Keys we 
have got very strict building code and we found that we been 
able to work through them pretty tight. But what we were 
finding is there is just not enough capability to produce 
modular homes quick enough to make up for the loss.
    So it is more of a product of the environment than of the 
capabilities.
    Mr. Crenshaw. Anything to add? I guess I have to yield my 
time.
    Mr. Payne. The gentleman's time has expired.
    Next we will have the gentleman from Louisiana, Mr. 
Richmond.
    Mr. Richmond. First off, let me thank you all for what you 
do. As going through both Katrina and Rita, you know, a named 
storm usually touches us somehow, some way. Or if it is not a 
named storm it could be BP or other disasters that we have.
    I would like to just, you know, and it was just mentioned 
about sometimes whether the local laws or State laws or zoning 
kind-of hampers your response. I would like to flip it a little 
bit to talk, if you want to give some examples of how the 
Stafford Act just retards the whole process in terms of whole 
community recovery.
    So let me give you some examples and you can give--the 
duplication of benefits was a humongous problem in terms of 
people coming back. Then it was counterproductive. If you were 
able to get a SBA loan then you had to take that money out of 
what you were able to receive in grant.
    Then if the bar against permanent fix, that any of the 
money has to be spent on a temporary fix as opposed to 
permanent. So if we want to talk about the climax of 
foolishness, I will tell you what I saw in my area. I want our 
members to really understand this.
    In a trailer subdivision, so a trailer park, we spent up to 
$60,000 to $100,000 to bring in temporary trailers to give 
housing to people that if we just gave them $60,000 they would 
have been able to go out and purchase a permanent one. So we 
put temporary trailers when we could have put permanent ones 
and saved the taxpayer money, sped up the recovery.
    It was because you cannot give money for permanent fixes so 
then we got creative and created the step program after 
disasters so people could shelter in place as opposed to 
putting them in a hotel.
    So when you think of things that we need to be doing, you 
know, what can we help you all with besides another bill that I 
have is to make sure that the I.G. doesn't get to come play 
Monday morning quarterback 5 years after a disaster when you 
all are in the line of fire at the time and making decisions on 
the go.
    So any of you all, if you have any thoughts or 
recommendations I would be very curious to hear them.
    Chief Senterfitt. Yes, sir. That is exactly the type of 
problems we run into. When you are telling a homeowner they 
can't repair their house to make basic repairs because it 
disqualifies them from Federal dollars, that is 
counterproductive. We need them in their homes.
    It has been a challenge and it has been difficult. Then 
when you consider under the National Flood Insurance Program 
you are telling people that no, you can't go in and repair your 
home because you may be over 50 percent, which may require 
elevation and new standards.
    The whole program needs to be re-looked at and it is time 
that we do a deep dive back into the Stafford Act to make sure 
that there is some common sense in what we are trying to do. I 
think over the years we have kind of gotten away from that.
    Major Bucchere. I agree with Mr. Senterfitt and I would add 
any way that we can reduce the complexity of some of the 
Federal programs would be of great benefit I think at the State 
and local levels. When you have homeowners are having on-going 
issues with insurance companies to the point of litigation and 
sometimes they are missing out on the maximum benefit or 
benefit at all from available Federal programs.
    In addition, on the back end of recovery we would certainly 
like to see our partners at FEMA stay the course throughout the 
disaster. What we are finding is that with the FEMA turnover, 
moving from disaster to disaster, as new staff comes in to 
help, which is needed, there is a difference in the 
interpretation of policy. So we need FEMA to assist us, a core 
group throughout.
    Mr. Richmond. One of the things, which was the last 
recommendation of the 9/11 Commission that has still not been 
adopted by this Congress when both Republicans and Democrats 
have controlled Congress, was to give comprehensive 
jurisdiction to someone to oversee disasters.
    So if we are talking about a hurricane response, for 
example, well, yes, we control FEMA and we ask for 
jurisdiction. But Stafford Act is the law that governs 
recovery. That goes to transportation. Well, the insurance 
committee will cover financial services will cover insurance 
and then you have HUD that plays a humongous role in terms of 
disaster CDBG money.
    So it would be my hope, and I think that maybe if our will 
is not here to do it, maybe first responders and offices of 
emergency preparedness around the country will come together 
and kind-of force us to do it, but it would make sense to me 
for us to adopt that last 9/11 Commission report which says, 
create a committee in Congress that will have the jurisdiction 
to comprehensively oversee disaster recovery.
    I think that, you know, it doesn't fall on any of our 
Chairmen and I think Chairman King was Chairman when I first 
got here and I remember him almost echoing these same 
sentiments. So hopefully, the private sector and our public 
servants out there can put the force behind it to make it 
happen.
    With that, I will yield back.
    Mr. Payne. Thank you, sir.
    Next we will have the gentleman from Mississippi Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Chief Waters, first of all I want to thank you and the 
nearly 58,000 both civilian and sworn officers of the New York 
City Police Department for not only the protection that you 
provide the citizens of your city, but the tens of millions of 
visitors that come to your city each year.
    In reading your testimony, I found it very interesting. I 
was looking, you were talking about, and I believe that we 
would all agree, that communications between first responders 
is critical. Is that correct?
    Chief Waters. Yes, sir.
    Mr. Guest. I see that New York City has invested tens if 
not hundreds of millions of dollars into a radio system that 
uses T-band for first responders to communicate.
    Chief Waters. Yes, sir.
    Mr. Guest. Will you elaborate just a little bit for the 
committee? I know in reading your testimony I believe that you 
have invested heavily in putting communications devices both in 
the subway tunnels and also in the high rises so that those 
first responders can communicate effectively.
    Chief Waters. Yes, sir.
    Mr. Guest. Then you also mention in your testimony that 
there is an auction of certain T-band spectrums that will be 
coming on-line in 2021?
    Chief Waters. Yes, sir.
    Mr. Guest. What effect would that have upon your 
department's ability to communicate?
    Chief Waters. It would seriously hamper our ability and at 
some point would put us out of business in the ability to use 
our department radios to transmit to one another or receive 
information from the 9-1-1 operators.
    Mr. Guest. From your testimony, you have said that if your 
department was having to switch to a different radio frequency 
that it would take years and billions of dollars in 
infrastructure cost to make that transition.
    Chief Waters. That is correct.
    Mr. Guest. I believe that you support the Don't Break Up 
the T-band Act of 2019.
    Chief Waters. I do.
    Mr. Guest. Again, that would be to protect the men and 
women of your department and to make sure that they can 
adequately communicate in an emergency?
    Chief Waters. Yes, sir.
    Mr. Guest. I believe in 9/11, I believe reading or hearing 
that there was communication issues between first responders 
when the Twin Towers were attacked. Is that correct?
    Chief Waters. Yes, sir.
    Mr. Guest. Do you believe that lack of communication 
attributed to the loss of life to some first responders and the 
fact that they were not able to get the evacuation order 
quickly enough to be able to evacuate safely at the time the 
towers collapsed?
    Chief Waters. Yes, sir.
    Mr. Guest. Is that part of the reason that you and your 
department have invested so heavily in the T-band system?
    Chief Waters. Yes, sir.
    Mr. Guest. Briefly, Chief Waters, I also want to talk--you 
talk briefly in your testimony about the use of CCTV or closed 
circuit television cameras.
    Chief Waters. Yes, sir.
    Mr. Guest. Have you found that to be effective in the role 
that you play in counterterrorism?
    Chief Waters. Yes, sir.
    Mr. Guest. Have you found that to be an effective tool just 
for law enforcement in general? Again, not things that are 
necessarily related to counterterrorism but just a general law 
enforcement officer who is seeking to prevent or reduce crime?
    Chief Waters. Yes, sir, it is a great crime-fighting tool 
and it is a great investigative tool.
    Mr. Guest. OK. Do you believe that the CCTV system has been 
able to help your department solve crime?
    Chief Waters. Yes, sir.
    Mr. Guest. Do you believe it also serves as a deterrent 
when individuals know that they are being monitored by closed 
circuit TV? I know we can't quantify how many crimes we 
prevent, but do you believe as a veteran of the police 
department and your years of experience, do you believe that 
the closed circuit television has prevented crime?
    Chief Waters. Yes, sir.
    Mr. Guest. Do you believe that the closed circuit 
television serves as a deterrent for those individuals who 
might consider engaging in terroristic activity?
    Chief Waters. Yes, sir.
    Mr. Guest. Then finally, one other thing that you talked 
about and I believe you touched on very briefly in your opening 
statement was the use of unmanned aircraft sometimes referred 
to as drones.
    Chief Waters. Yes, sir.
    Mr. Guest. You say in your testimony that we have seen 
terror groups overseas use drones as an effort to obtain either 
countersurveillance or in some cases they have been able to use 
drones to cause harm or damage.
    Chief Waters. Yes, sir.
    Mr. Guest. Does the technology currently exist to allow the 
Federal Government to block or to jam signals to drones?
    Chief Waters. Yes, sir.
    Mr. Guest. Do you or does your department have the ability 
to access that technology?
    Chief Waters. No--well, we can access it through our 
Federal partners but we don't have the opportunity or the 
authority to do it on our own now----
    Mr. Guest. Do you believe----
    Chief Waters. Which is very much necessary.
    Mr. Guest. Yes, sir. Do you believe it would be beneficial 
to your department for you to be able--your department 
specifically, to be able to access that technology?
    Chief Waters. Yes, sir.
    Mr. Guest. I yield back, Mr. Chairman.
    Mr. Payne. Thank you, sir.
    Next we have the gentleman from New York, Mr. Rose.
    Mr. Rose. Thank you, Mr. Chairman.
    Chief Waters, first of all thank you for being here. Thank 
you for your service. As a New Yorker we are really blessed to 
have you and your men and women with the NYPD.
    I want to ask you just a few very, very simple questions. 
First, looking back over the last decade have you seen Federal 
money related to counterterrorism measures toward New York City 
go down, up, or stay equal?
    Chief Waters. They have gone down.
    Mr. Rose. What have been the consequences of that?
    Chief Waters. Well, we have to make some very serious 
choices and decisions on what programs or initiatives that we 
are either going to do away with or lessen the opportunities 
for training for officers, to give you two examples.
    Mr. Rose. If you could actually go into the specifics of 
that though to really illuminate the ways in which budgetary 
decisions here in the halls of Congress, many of which have an 
anti-New York bias, what has that led to specifically?
    Chief Waters. We have to work within the constraints of the 
budget and we take that money and figure out exactly how many 
officers we can train, how much equipment and technology we can 
purchase, how many vapor wake dogs or explosive odor pursuit 
dogs we can purchase with that money.
    It is extremely challenging at times. We want to train as 
many officers as we can as often as we can.
    Mr. Rose. Sure.
    Chief Waters. We want to be able to buy that cutting-edge 
technology as it comes out so that we can stay ahead of the 
enemy, if you will and be able to better protect the citizens 
and the guests and visitors and all that work, live, and play 
in New York.
    Mr. Rose. What can we do for you to help improve your 
counterterrorism measures at the NYPD?
    Chief Waters. Well certainly we appreciate all the 
partnership that we have already gotten from the Government and 
this committee in particular. There are several programs. 
Certainly we could use more money in the different grant 
cycles, UASI, transit and port. The regional catastrophic grant 
program would need more money for regional planning in terms of 
preparedness for other disasters.
    But, you know, money in this particular case in my bureau 
it is a very thoughtful and it is very deliberate process how 
we spend it. I realize that we are spending taxpayer money and 
that is very important that we can justify what we are spending 
it for and what the end product is.
    Mr. Rose. Thank you. Moving to another subject, something 
that I have been looking at with some more seriousness is 
ferry-related security. Across the country we are shifting more 
toward ferry-based modes of transportation as commuting times 
get worse.
    What has your department done to focus on maritime-related 
counterterror measures and what can we do to support you?
    Chief Waters. Thank you. So we have undergone, as you well 
know, sir, the Staten Island ferry just underwent a review 
directed by the police commissioner. He tasked me with doing a 
full review of the personnel, equipment, training of the 
members of the unit that protect the ferries, ride the ferries 
each and every day.
    As a result of that review we have given all of the 
officers that are assigned to that unit additional 
counterterrorism officer training, brought up their efficiency 
in certain areas, active shooter, personal radiation detection 
equipment, hostile surveillance, to name a few.
    We also are adding at the police commissioner's direction 
are adding personnel to that unit to better support that unit 
and protect both sides of the water.
    Mr. Rose. Just one thing, though, to the Staten Island 
ferry specifically with what you all are doing, would you 
support in theory a greater National Guard presence with the 
Empire Shield, which does receive Federal funds to be a 
presence on the Staten Island side as they are on the Manhattan 
side? I know we are getting hyper-local here, but it is of 
importance to my folks.
    Chief Waters. Certainly. We welcome all of our partners. 
Shield is one of them. They deploy at the transit facilities in 
Grand Central, Penn Station. We do super searches with the 
Guard all the time so they would be very welcome, yes, sir.
    Mr. Rose. Thank you. That is very much appreciated. Thank 
you again for your service.
    Chief Waters. Thank you, sir.
    Mr. Payne. Thank you. The gentleman yields back.
    The gentleman from Pennsylvania, Mr. Joyce.
    Mr. Joyce. Chairman Payne, Ranking Member King, thank you 
for holding this meeting. A sincere thanks to you for coming to 
Washington and giving this serious input, which we need to 
hear.
    This is a brief question. We all recognize that emerging 
technologies are becoming available to first responders. What 
can FEMA and other Federal partners do to ensure that this 
technology successfully gets to the end-users?
    Chief Waters, I am going to ask you to address that first.
    Chief Waters. So in my area of expertise, sir, the domain 
awareness system is on the cutting edge of technology, our use 
of cameras, license plate readers, chemical and biological 
sensors are the key to our success, if you will, in protecting 
New York. The constant and ever-changing technology is 
something that we must keep in step in with or keep ahead of at 
all times.
    The cameras offer us a view of the city both proactively 
and reactively in solving crimes and keeping people safe. 
License plate readers add an additional investigative value and 
capturing that information and being able to review that has 
either protected and helped solve crimes.
    Mr. Joyce. Mr. Senterfitt, can you add to that, please?
    Chief Senterfitt. Yes, sir. Cellular service has become a 
requirement in today's modern life. When the cell phone systems 
go down the disaster really impacts all of us. The purchasing 
cell phone technology is really not very--the cost-benefit 
analysis for a small community we wouldn't use it enough to be 
able to make a difference.
    But I think if FEMA could invest in the cell phone 
capability where they could provide that in disaster services 
more quickly I think we could all benefit. That capability 
could move to any disaster zone anywhere in the country.
    Mr. Joyce. Mr. Reaves, do you feel that cell phone 
technology is adequate?
    Mr. Reaves. I know that our agency spends a lot of money on 
cell phone technology. I know that it does help and assist in 
great number of survivor sites and disaster sites. Again, it is 
dependent upon the size of the disaster a lot of times, Mr. 
Joyce.
    So, you know, in order to know if it is truly cost-
beneficial for the Federal Government, and I would have to go 
back to the agency and get that information for you.
    Mr. Joyce. Thank you, sir.
    Mr. Bucchere, any additional comments?
    Major Bucchere. I would concur with Mr. Senterfitt that 
there is an increased need for additional cell phone technology 
at the State level. In New Jersey we are working with our 
partners in Department of Transportation on different 
applications which can actively engage those in things as small 
as a traffic queue to larger incidents. So any advances in cell 
phone technology would be beneficial from the State's 
perspective.
    Mr. Joyce. I thank you all for your input.
    I yield back my time.
    Mr. Payne. Thank you.
    I want to thank the witnesses for their valuable testimony 
and Members for their questions.
    Members of the subcommittee may have an additional 
questions for the witnesses and we ask that you respond 
expeditiously in writing to those questions.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days, without objection.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Chairman Donald M. Payne, Jr. for Louis V. Bucchere
    Question 1a. Can you describe how New Jersey works to ensure pre-
disaster homeless individuals are incorporated into the disaster 
planning process?
    Question 1b. How was FEMA involved in making sure the needs of 
homeless individuals were not left behind in the recovery process after 
Sandy and other disasters?
    Answer. In the emergency management community we operate on the 
principle that all disasters start local and end local. It is important 
for Office of Emergency Management (OEM) Coordinators to have an 
understanding of the homeless population in their respective 
jurisdictions in order to ensure that population is taken care of 
during a disaster. By working with their rescue missions, non-profit 
organizations, faith-based groups and those involved with Cold Weather 
Sheltering (NJ Code Blue), the OEM coordinator has an estimate of the 
number of homeless that would need care. During a disaster, the 
homeless population is best served by the local OEM Coordinator who 
better understands the population and how to connect them to local 
available resources. In addition, the State of New Jersey, through the 
Department of Human Services (NJDHS), has a number of programs that 
offer assistance to low-income and homeless populations which, during a 
disaster, will continue and they will make every effort to connect 
those to the services they need.
    During a Presidentially-Declared disaster FEMA will generally 
initiate their Public Assistance (PA) and/or Individual Assistance (IA) 
Grant Programs to support both communities and survivors in their 
rebuilding/recovery efforts. The Individual Assistance Program is 
limited to those households impacted by a disaster and there is a 
finite dollar amount placed on the amount awarded to the survivor. None 
of this funding is specifically allocated to support the homeless 
population. It is contingent upon the State, the Voluntary 
Organizations Active in Disasters (VOAD), and the established Long-Term 
Recovery Groups (LTRGs) to make a difference in assisting those 
survivors with continued unmet needs. New Jersey is fortunate to have 
strong ties with the VOAD community as well as the FEMA Voluntary 
Liaison from Region II.
    In the aftermath of Hurricane Sandy, 14 county-based LTRGs were 
established throughout the State which made a difference assisting 
those survivors when FEMA IA funding ran out. The Emergency Assistance 
Group of the Mass Care Team coordinates programs to support disaster 
survivors in providing temporary State aid, General Assistance or the 
Disaster Supplemental Nutrition Assistance Program (DSNAP), Disaster 
Legal Assistance, Temporary Disaster Unemployment and other necessary 
State programs as necessary.
    NJDHS continually works with the low-income and homeless 
populations through their many Divisions and the County Welfare 
Agencies or Boards of Social Services that assist those in need with 
items such as financial assistance, food, or housing. During an 
activation of the State Emergency Operations Center (SEOC) the 
Emergency Support Function No. 6 (ESF6) Plan is broken up into 5 
distinct groups in order to efficiently coordinate Mass Care:
  <bullet> Sheltering
  <bullet> Feeding
  <bullet> Emergency Assistance
  <bullet> Disaster Housing
  <bullet> Human Services
    The groups are tasked with assisting the homeless through 
identifying needs and support for individuals and to assist with 
expediting processing of new benefits claims. Even during a disaster 
these programs continue and are sometimes expanded or have requirements 
waived to support low-income or homeless populations.It is important to 
note that any Federal Program coming to a State to offer disaster 
support needs to be coordinated through the State's emergency 
management system in order to ensure the disaster funds are used in the 
most efficient and proper manner. Two examples of this are the 
Community Development Block Grant (CDBG) funds and the Social Service 
Block Grant (SSBG) funds that were introduced to New Jersey in the 
aftermath of Sandy.
    The CDBG funds came through the US Department of Housing and Urban 
Development (HUD) to support rebuilding efforts in New Jersey. These 
funds are managed by the NJ Department of Community Affairs (NJDCA) as 
they are the lead agency tasked with coordinating long-term housing 
post-disaster. The SSBG funds were managed by NJDHS through the U.S. 
Department of Health and Human Services, Administration of Children and 
Families. The funds were utilized for 2 types of programs: (1) 
Community-wide programs available to all members of the community in 
the highly impacted areas including but not limited to clinical 
counseling, service coordination, and outreach; and (2) programs 
addressing uncovered costs related to the storm's damage of home or 
property, including household repairs, restoration of accessibility 
enhancements, and short-term housing subsidies for residents for whom 
no other financial assistance is available or where gaps exist.
    There are other support programs that New Jersey provides, such as 
the Social Service for the Homeless (SSH) Program which is coordinated 
through the NJDHS. This program can also be used to support at risk 
persons during times of disaster. As an example, SSH was used to offer 
assistance to those Puerto Rico evacuees who came to New Jersey in the 
aftermath of Hurricanes Irma and Maria when their housing options ran 
out.
    During times of disaster recovery it is critical to partner with 
emergency management programs so that funds can be utilized in the most 
efficient way to aid survivors.
   Questions From Chairman Donald M. Payne, Jr. for Martin ``Marty'' 
                               Senterfitt
    Question 1. With the geographic location of the Florida Keys, I can 
imagine that climate change is a major concern and informs the 
preparedness plans of the county. Can you tell the subcommittee how 
climate change plays a role in Monroe County's preparedness and 
mitigation activities?
    Answer. Monroe County, Florida, also known as the Florida Keys, an 
archipelago of low-lying islands more than 100 miles long, is one of 
the areas in our Nation most vulnerable to the effects of climate 
change. With many of its' 300 miles of roads and facilities at or near 
sea level and with sea level rise projections of 14-34 inches by the 
year 2060, the county has already begun to plan and implement 
mitigation and adaptation programs and projects in preparation.
    The county prepared a GreenKeys Climate and Resilience Plan 
(www.greenkeys.info), which focuses on 5 areas of recommendations 
(www.greenkeys.info/focus-areas-recommendations) and listed specific 
projects for mitigation and adaptation over a 5-year time frame 
(www.templatemodifiers.com/monroe-wp/wp-content/uploads/2016/12/
Appendix-I-5-Year-Work-Plan.pdf). By planning and implementing projects 
and programs while sea-level rise effects are in the early stages, the 
county will maximize the effectiveness and cost efficiencies of its 
efforts over the long term. The ultimate goal is to focus its resources 
on enabling the county and its residents to live with the effects of 
climate change and to allow its many visitors continued access to this 
beautiful sub-tropical island chain.
    For its adaptation efforts, the county reviewed its infrastructure 
including buildings, roads, bridges, parks, and utilities (water, 
wastewater, and electrical) and determined that roads and buildings 
were the two areas of infrastructure most vulnerable to sea-level rise. 
Initial modeling was conducted to determine the potential effects of 
climate change to roads and facilities and how the county, its 
residents and visitors could be affected in the future. Based on this 
research, the county has moved forward with elevating all new county 
facilities to account for the anticipated sea-level rise over the next 
50 years. In addition, 2 pilot road elevation projects are underway in 
Big Pine Key and Key Largo, where a section of road in each community 
will be elevated and have drainage features added to handle current and 
future levels of sea-level rise anticipated over the next 25 years.
    The county also recently completed mobile LiDAR elevation surveys 
of all of its 300 miles of county-maintained roads. This LiDAR data 
will be combined with the sea-level rise predictions over the next 30 
to 40 years for the county to prepare a Roads Adaptation Plan that will 
identify which roads need to be elevated, how high, and when. While 
this Plan is being developed, the county will also analyze its policies 
to determine which roads, if any, may not be able to be elevated and 
how many days a year, if any, residents may anticipate experiencing 
flooding on their neighborhood roads. The county has limited resources 
available to pay for roads elevation implementation, which could cost 
the county $1 billion or more. Therefore, without State and Federal 
assistance, difficult policy decisions may need to be made to focus 
these resources. In the interim while the Roads Plan is being 
developed, the county adopted Resolution 028-2017 that includes an 
``interim'' road design standard that: (1) Accounts for sea-level rise 
for the 1`useful life'' of the road project (approximately 25 years) 
and (2) includes a threshold not to exceed projected flooding more than 
7 days annually.
    For its mitigation efforts, Monroe County adopted a goal for 
greenhouse gas (GHG) emissions reduction of 40% by 2030 from the 2012 
inventory level. Monroe County also completed the STAR (Sustainability 
Tools for Assessing and Rating Communities) community rating system 
application and was ranked a 3-STAR community with a total score of 
261.3 points (3-STAR Community 200-399 points) and was recognized for 
sustainability leadership. Efforts at mitigation also include adopting 
energy efficiency for county operations, fleet management goals, and 
solid waste strategies. Mitigation is included in numerous policies 
adopted by the Monroe County Board of County Commissioners including a 
feasibility study for light rail, the GreenKeys Sustainability Action 
Plan, Monroe County Comprehensive Plan--Energy and Climate Element, 
recycling of yard waste, and adoption of GHG emission reduction goals 
for the county. Following are examples of mitigation priorities:
  <bullet> Establishment of a solar feasibility study for all new and 
        existing county-owned buildings.
  <bullet> Development of a Green Purchasing Policy underway.
  <bullet> Adoption of the Property-Assessed Clean Energy (PACE) 
        program county-wide.
  <bullet> Adoption of Energy Awareness Month.
  <bullet> Adoption of a Transportation Study to reduce emissions.
  <bullet> Establishment of an internal Energy Reduction Task Force.
  <bullet> Adaptation Action Area criteria development.
  <bullet> Development of the Southeast Florida Regional Climate Change 
        Action Plan with the Southeast Florida Regional Climate 
        Compact.
  <bullet> Creation of the Energy Efficiency Conservation Strategy for 
        municipal operations.
  <bullet> Adoption and implementation of Energy Efficiency and 
        Conservation Block Grant activities in 2010-2012.
    Question 2. We've heard reports from communities in Puerto Rico 
that many have been unable to start any permanent work Public 
Assistance (PA) projects because the island was pressured into using 
the Section 428, Alternative Procedures PA program. Can you tell us 
where in the process Monroe County is with their permanent work 
projects?
    Answer. Monroe County has not elected to participate in the 
Alternative Procedures for Permanent Work program (Section 428). To 
date, Monroe County has identified 36 permanent work projects and all 
36 projects have been submitted to FEMA for formulation. Of the 36 
permanent work projects submitted to FEMA only one has been obligated. 
Twenty-nine projects are currently with FEMA at the CRC and 6 are in 
final review, 3 of those at the State level. At this time no funding 
has been received for any permanent work projects.
      Question From Chairman Donald M. Payne, Jr. for Steve Reaves
    Question. As you know, FEMA has many different types of employees, 
including full-time and on call, that can be deployed once disaster 
strikes. These people are integral in having capable response and 
recovery for communities. Can you describe the benefits of having 
permanent, full-time workers at FEMA over temporary employees that do 
not have the same labor protections or training?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
